<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:39 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Shelby, Murkowski, Blunt, 
Daines, Moran, Durbin, Leahy, Murray, Tester, Udall, and 
Schatz.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. PATRICK MURPHY, ACTING SECRETARY


               opening statement of senator thad cochran


    Senator Cochran. Good morning. We appreciate very much the 
attendance of our witnesses and committee members. The purpose 
of our hearing today in the Appropriations Committee is to 
review the budget request for the Department of the Army. The 
purpose of the hearing is to give the military leadership an 
opportunity to answer questions that members of the committee 
might have about the provisions in the draft that we will be 
reviewing.
    It is appropriate that we begin the hearing with the 
leadership, the Chief of Staff of the U.S. Army and the 
Secretary of the Army, who are here. We appreciate your being 
here. Patrick Murphy, Acting Secretary of the Army, and General 
Mark Milley, Chief of Staff of the Army.
    We know that you have prepared statements, which we 
appreciate very much receiving. It gives our staff and 
committee members an opportunity to review the budget request 
and to have you answer any questions that we may have.
    Today, our Armed Forces are engaged globally more than ever 
before. There are 190,000 Regular Army, Army National Guard, 
and Army Reserve soldiers serving on Active Duty in 140 
countries.
    This bill that this subcommittee will recommend to the full 
committee deals with the obligations of carrying out the 
missions contributing to peace and strength, and the capability 
to protect the U.S. interests around the world.
    We are looking forward to working with the leaders of the 
Army to be sure our men and women in uniform are capable of 
performing well and protecting our national interests.
    We owe a debt of gratitude and appreciation for all who 
serve in the military. We appreciate your service.
    The statements that you prepared are appreciated, and will 
be made a part of the record in full. I am pleased now to yield 
to the distinguished Vice Chairman of the Committee, Senator 
Durbin.


                 statement of senator richard j. durbin


    Senator Durbin. Thanks, Mr. Chairman. I am going to put my 
statement in the record in the interest of moving along here. 
Two points I would like to make. One is I wholeheartedly 
support this effort to strengthen our position in Europe, the 
European reassurance initiative, which we have discussed.
    I want to thank Secretary Murphy and General Milley for 
their service to our country. I am sure Secretary Murphy is 
doing a fine job.
    I regret the fact that the President's nominee for 
Secretary of the Army, which was submitted on September 22, 
2015, waited 4 months for a confirmation hearing, and has been 
waiting another month for a vote in the committee.
    This is another critical nomination being held up by the 
Republican Majority, and I do not understand why. I am sure 
that the two of you will do an excellent job despite this, but 
that is the reality of what we face. Thank you.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming the Acting 
Secretary of the Army, the Honorable Patrick Murphy, and the Chief of 
Staff of the Army, General Mark Milley, to our hearing to review the 
Army's budget request for fiscal year 2017. Both of our witnesses are 
testifying before this Committee for the first time, and although they 
have held their respective positions for only a few months, I commend 
them on their leadership and look forward to working with them.
    One of the major threats facing the world today is the resurgence 
of an aggressive Russia. President Putin has demonstrated that his 
ambitions reach beyond Russian borders: first through the annexation of 
Crimea, and now by continuing the fighting in Ukraine despite a 
ceasefire agreement signed last year.
    The readiness and presence of the Army in Europe is an 
indispensable element of our Nation's commitment to our allies and 
against further aggression. This budget includes $3.4 billion for the 
European Reassurance Initiative, and $43.5 billion in operation and 
maintenance for the Total Army, which support our promise for a free, 
secure, and stable Europe.
    The Army will be at the forefront of these initiatives, including 
the rotation of additional Brigade Combat Teams to Europe, increasing 
training exercises with our allies, and encouraging professional 
development for our soldiers, leaders, and Army civilians.
    There are nearly 190,000 soldiers serving in deployed status around 
the world. The Army's budget request includes $148 billion to support 
these women and men, as well as to provide for the training, equipping, 
and operation of the entire Army, Army Reserve, and National Guard. Our 
country has an obligation to look out for the well-being of those who 
have volunteered to serve.
    In addition, we also have an obligation to provide our troops with 
the best leadership in these difficult times. Unfortunately, partisan 
obstruction has led to a vacancy in the office of the Secretary of the 
Army with no end in sight.
    The President's nomination of Eric Fanning was made on September 21 
of last year. Mr. Fanning waited 4 months for a confirmation hearing. 
He has been waiting another month for a vote in committee. His 
nomination has already had holds placed on it, even though Mr. Fanning 
has an extensive and impressive record of service to our government.
    Sadly, the obstruction is not limited to this one nomination. 
Several other Department of Defense appointments are being blocked, 
with some nominations to senior positions waiting nearly 8 months for a 
simple hearing before the Armed Services Committee.
    The Defense Subcommittee is working quickly and efficiently to be 
able to mark up a $576 billion budget in the next 3 months. If we can 
review that much in proposed spending in that short of a time, the 
Senate must be able to move forward on several important defense 
nominations in a timely manner.
    Mr. Chairman, I join you in thanking the witnesses for their 
service to our country, and I look forward to their testimony.

    Senator Cochran. We will now proceed to welcome and invite 
the witnesses to make any opening statements or comments about 
the budget request as you see fit. We appreciate the Honorable 
Patrick Murphy, Acting Secretary of the Army, and General Mark 
Milley, Chief of Staff of the Army, for their presence and 
their leadership. You may proceed with opening statements or 
comments.

                SUMMARY STATEMENT OF HON. PATRICK MURPHY

    Mr. Murphy. Thank you, Chairman Cochran, Ranking Member 
Durbin, and members of the committee. We appreciate the 
opportunity to talk to you today about our Army.
    This is my 7th week on the job as Acting Secretary, and it 
is truly an honor to be back with the Army family. I traveled 
to see our soldiers, civilians, and their families at Fort 
Hood, Fort Sam Houston, and most recently in Iraq and 
Afghanistan.
    The selfless service and dedication of our team should 
inspire us all. We are tasked with the solemn responsibility to 
fight and win our Nation's wars, and to keep our families safe 
here at home.
    Our Army must produce ready units to deter and defeat our 
Nation's enemies, defend the homeland, respond to crises, build 
global security, project power, and to win decisively. By 
``ready,'' we mean units that are fully manned, trained in 
their combat tasks, fully equipped according to a designed 
structure, and led by competent leaders.
    With their $125.1 billion base request, our Army will focus 
its efforts on rebuilding readiness for large scale, high end 
ground combat today. We do so because we believe that ignoring 
readiness shortfalls puts our Nation at great risk for the 
following reasons.
    First, readiness wins wars. Our Army has never been the 
largest in a war, and at times we have not been the best 
equipped, but since World War II, we have recognized that ready 
soldiers properly manned, trained, equipped, and led can be 
larger or more determined forces, whether confronting the 
barbaric acts of ISIS or the desperation of North Korea, our 
Army must be prepared to execute and to win. We train like we 
fight, and our Army must always be ready to right tonight.
    Next, readiness deters our most dangerous threats. We are 
reminded with alarming frequency that great power conflicts are 
not dead. Today, they manifest on a regional basis. Both a 
revanchist Russia and China are challenging America's 
willingness and ability to enforce international standards of 
conduct. A ready Army provides America the strength to deter 
such actions.
    Readiness also makes future training less costly. 
Continuous operations since 2001 have left our force proficient 
in stability and counterterrorism operations, but our future 
command sergeants major and brigade commanders have not had 
critical combat training center experiences as junior leaders, 
trained for high end ground combat. Investing in readiness 
today builds a foundation upon which future training can be 
retained longer, throughout our Army.
    Finally, readiness prepares our force for transformation. 
Our Army must be prepared to face the high end and advanced 
combat power of Russia or more likely Russian capability 
employed by surrogate actors. We are dedicating resources and 
developing solutions for this and other future possibilities to 
allow our force the space to develop new concepts or those 
suggested by the Commission on the Future of the Army.
    Our formations must first be ready to execute against 
current and emerging threats. The choice to invest in near term 
readiness does come with risks. Slower modernization 
investments risks our ability to fight and win in the future. 
We have no new modernization programs this decade. Smaller 
investments in strength risks our ability to conduct multiple 
operations for sustained periods of time.
    In short, we are mortgaging our future readiness because we 
have to ensure success in today's battles against emerging 
threats. That is why initiatives like the BRAC of 2019 are 
needed, to be implemented now.
    Let us manage your investment and this will result in $500 
million a year in savings, and a return on investment within 5 
years.
    Lastly, while we thank Congress for the Bipartisan Budget 
Act of 2015, which does provide short term relief and 2 years 
of predictable funding, we would request your support for the 
enactment of our budget as proposed.
    We request your support for continued funding at levels 
calibrated to current threats and to our national security 
interests, and we request your continued support for our 
soldiers, civilians, and their families, so that our Army 
remains the most capable fighting force on this earth, and will 
fight and win our Nation's wars and keep our families safe here 
at home.
    Thank you, Mr. Chairman.
    [The statement follows:]
Prepared Statement of Hon. Patrick J. Murphy and General Mark A. Milley
    We would like to thank the committee for their continued support of 
the United States Army and the American Soldier. Humbled to be 
entrusted with the care of our Soldiers, Civilians, and their Families, 
we look forward to working with Congress to ensure our Army remains 
unmatched in the world.
                              introduction
    The United States Army is the most formidable ground combat force 
on earth. America's Army has convincingly demonstrated its competence 
and effectiveness in diverse missions overseas and in the homeland. 
Today, these missions include: fighting terrorists around the world; 
training Afghan and Iraqi Army forces; peacekeeping in the Sinai 
Peninsula and Kosovo; missile defense in the Persian Gulf; security 
assistance in Africa and South America; deterrence in Europe, the 
Republic of Korea, and Kuwait; rapid deployment global contingency 
forces; and response forces for the homeland. Additionally, we maintain 
12,000 miles of U.S. waterways; respond to hurricanes, floods, and 
severe snowstorms; patrol our Southwest border; and assist with the 
response to the outbreak of pandemic diseases. In support of these U.S. 
Geographic Combatant Command missions, the Army has approximately 
190,000 Soldiers deployed to 140 countries. Largely due to deliberate 
investments in Soldier training, equipping, and leader development, 
today's Army continues to excel at these diverse and enduring missions. 
However, we cannot become complacent, remain static, and look to the 
past or present to be a guarantor of future victory. To sustain this 
high performance and remain prepared for potential contingencies, the 
Army must make the most of the resources entrusted to us by the 
American people. This ultimately requires a balance of competing 
requirements--readiness, end strength, and modernization--to ensure 
America's Army remains ready to fight and win both today and in the 
future.
    Throughout history, successful armies anticipated the future, 
adapted, and capitalized upon opportunities. Today, the Army faces a 
rapidly changing security environment that requires the Army to make 
difficult decisions in order to remain an effective instrument of the 
Nation's military power. An Army ready for combat is the most effective 
tool to continually assure allies and deter or defeat adversaries. 
However, given the past 3 years of reduced funding coupled with the 
uncertainty of future funding, the Army risks going to war with 
insufficient readiness to win decisively. Therefore, the Army's number 
one priority is readiness.
    Increasing Army readiness provides additional options for the 
President, Secretary of Defense, and Congress to successfully implement 
American foreign and security policy. In this budget, the Army will 
focus investments on readiness, key modernization programs, and Soldier 
quality of life to sustain the world's greatest Army. Our benchmark of 
success is to: sustain and improve our capabilities to prevent 
conflict; shape the environment by building partner capacity; win the 
current war against terrorists in Iraq, Afghanistan, and elsewhere; and 
prepare ourselves to win the next war decisively.
    A ready Army is a manned, trained, equipped, and well-led force 
that can conduct Joint missions to deter and defeat a wide range of 
state and non-state actors. No American Soldier should ever go to 
combat unready for the brutal and unforgiving environment of ground 
combat-- that is the contract we must ensure is rock solid between the 
American people and the American Army. Therefore, this budget requests 
Congressional support to fund readiness and end strength, provide our 
Soldiers with modern equipment, and ensure adequate Soldier quality of 
life.
                  adapting to new strategic realities
    The global security environment is increasingly uncertain and 
complex. Opportunities to create a less dangerous world through 
diplomacy, economic stability, collective security, and national 
example exist, but military strength is both a complementary and 
foundational element of National power in a dangerous world. Each 
element is necessary in combination with the others; however, each 
alone is insufficient to win a war or maintain a peace. The conditions 
of diplomatic success, for example, are more likely if military options 
are credible, real, and perceived as unacceptable to an adversary. 
Therefore, for the Nation to advance its enduring national interests, 
our Joint force as a whole, and the Army in particular--in terms of 
capacity and capability--must remain strong.
    In Europe, Russia continues to act aggressively. While we cannot 
predict Russia's next move, its record of aggression in multiple 
domains throughout the last decade--Georgia in 2008 and Ukraine (both 
eastern and Crimea) in 2014--clearly illustrates the need to be 
prepared to deter or defeat further Russian aggression. Russian acts of 
aggression are a direct threat to the national security of the United 
States and our NATO allies. Accordingly, in this budget we ask for your 
support to modify the Army's posture in Europe, including more 
rotational forces, prepositioned equipment, and increased operational 
use of the Army National Guard and Army Reserve.
    Throughout the Middle East and South Asia, radical terrorism 
threatens regional order. The Islamic State of Iraq and the Levant, al-
Qaeda, and other transnational terrorist groups present a significant 
threat and must be destroyed. The Islamic State of Iraq and the Levant 
is the most lethal and destabilizing terrorist group in modern history. 
There are more members of radical Islamic terrorist groups operating in 
Iraq, Syria, Egypt, Saudi Arabia, Libya, Algeria, Morocco, and 
elsewhere than ever before. Their ability to seize and hold territory 
and spread their ideology through social media is a significant 
challenge. They also have demonstrated both capability and intent for 
global reach into Europe, Asia, and the U.S. homeland. Additionally, 
although the imminent threat of Iran's nuclear weapons development has 
reduced, Iran remains a supporter of various terrorist groups and is a 
considerable threat to stability in the Middle East and U.S. interests. 
Destroying the Islamic State of Iraq and the Levant and other radical 
terrorist groups will take considerable time. It is a necessary 
commitment and we ask Congress for continued resources to sustain our 
efforts in the Middle East and South Asia for the long term.
    Strategically in Asia and the Pacific, there are complex systemic 
challenges from unresolved territorial disputes, economic and 
demographic change, a little noticed ongoing arms race, a perceptible 
rise in nationalism, and a lack of multilateral collective security 
regimes in Northeast Asia. China is not currently an enemy, but their 
rapid military modernization and activities in the South China Sea are 
warning signs that cause concern. China continues to militarize 
territorial claims in the South China Sea and impede freedom of 
navigation in the Asia-Pacific region. The Army, in support of naval, 
air, and diplomatic efforts, will play a significant role in 
maintaining peaceful relations with a rising China. Meanwhile, North 
Korean nuclear and missile developments, in combination with routine 
acts of provocation in the Demilitarized Zone, continue to pose an 
imminent threat to regional security in Northeast Asia. The Army's 
assigned and rotational forces in the Republic of Korea, Japan, and 
throughout the Asia-Pacific region today provide a deterrent and 
contingency response capability that strengthens defense relationships 
and builds increased capacity with our allies. We must sustain and 
improve that capability to execute our national strategy to rebalance 
to the Asia-Pacific. In short, the conditions for potential conflict in 
Asia, as in Europe, are of considerable concern and our Army has an 
important role to prevent conflict and if conflict occurs, then to win 
as part of the Joint force.
    Politically, socially, economically, and demographically, Africa's 
potential for positive growth is significant. Realizing this potential 
depends on African governments' ability to provide security and 
stability for their people against terrorist groups such as the Boko 
Haram, al-Shabaab, and al-Qaeda in the Islamic Maghreb as well as the 
Islamic State of Iraq and the Levant in Libya. Army forces partner with 
ministries of defense to develop and shape the environment and 
establish strategic frameworks that employ forces, build professional 
military institutions, and partner with European Allies to achieve 
shared strategic objectives.
    In Central and South America, criminal gang and drug trafficking 
activities have wrought devastating consequences in many of our partner 
nations, degrading their civilian police and justice systems, 
corrupting their institutions, and contributing to a breakdown in 
citizen safety. Our annual multinational training exercises with our 
partners promote regional cooperation and enhance readiness of partner 
nation military forces. To date, we have active partnerships with 
defense and security forces from 26 nations in the Caribbean, Central 
America, and South America.
    Today, state and non-state actors are destabilizing major regions 
of the world by combining conventional and irregular warfare with 
terrorism. Acts of aggression also occur through surrogates, cyber and 
electronic systems, organized criminal activity, and economic coercion. 
These groups mobilize people, resources, and sophisticated modern 
weapons in unconventional ways that enable hostile actors to be more 
agile than traditional militaries. Since these advantages are low cost, 
it is likely this form of conflict will persist well into the future 
and our Army must adapt.
    The U.S. Army, as the principal land force of a global power, does 
not have the luxury of preparing to fight only one type of enemy, at 
one time, in one place. We cannot forecast precisely when and where the 
next contingency that requires Army forces will arise. However, history 
indicates that the next contingency will likely require a commitment of 
conventional and unconventional forces to conduct operations of 
significant scale and duration to achieve strategic objectives. If a 
major crisis occurred today, the Army would likely deploy all 
uncommitted forces-- from all components--into combat on very short 
notice. Therefore, the readiness of the Army is key to the security of 
the Nation. Unfortunately, less than one-third of Army forces are at 
acceptable readiness levels to conduct sustained ground combat in a 
full spectrum environment against a highly lethal hybrid threat or 
near-peer adversary. The risk of deploying unready forces into combat 
is higher U.S. casualty rates and increased risk to mission success. To 
mitigate this risk, the Army will continue to prioritize readiness to 
reverse declines from the past 15 years of continuous combat and 
reduced resources. We welcome continued Congressional support in this 
effort.
                  the foundation of america's defense
    Fundamentally, America's Army protects the Nation by winning wars 
as part of the Joint Force. As the Nation's principal land force, the 
Army organizes, trains, and equips forces for prompt and sustained 
campaign-level ground combat. The Army is necessary to defeat enemy 
forces, control terrain, secure populations, consolidate gains, 
preserve joint force freedom of action, and establish conditions for 
lasting peace. To do the core tasks globally against a wide range of 
threats, the Army must have both capability and capacity properly 
balanced. Although important, it is not just the size of the Army that 
matters, but rather the right mix of capacity, readiness, skill, 
superior equipment, and talented Soldiers, which in combination, are 
the key to ground combat power and decision in warfare.
    Today's Army maintains significant forces stationed and rotating 
overseas that provide a visible and credible deterrent. However, should 
war occur, we must terminate the conflict on terms favorable to the 
United States--this requires significant ready forces and the 
operational use of the Army National Guard and Army Reserve. Only the 
Army provides the President and the Secretary of Defense the ability to 
rapidly deploy ground forces, ranging in decisive ground capabilities 
from Humanitarian Assistance and Countering Terrorism to high-end 
decisive operations. Moreover, the Army conducts these operations in 
unilateral, bilateral, or coalition environments across the range of 
conflict from unconventional warfare to major combat operations. In the 
end, the deployment of the American Army is the ultimate display of 
American resolve to assure allies and deter enemies.
    While the Army fights alongside the Navy, Air Force, Marines, Coast 
Guard, and our allies, the Nation also relies on a ready Army to 
provide unique capabilities for the Nation's defense. Unique to the 
Army is the ability to conduct sustained land campaigns in order to 
destroy or defeat an enemy, defend critical assets, protect 
populations, and seize positions of strategic advantage. Additionally, 
as the foundation of the Joint Force, the Army provides critical 
capabilities--command and control, communications, intelligence, 
logistics, and special operations--in support of Joint operations. In 
short, a ready Army enables the Nation to deploy ground forces in 
sufficient scale and duration to prevent conflict, shape outcomes, 
create multiple options for resolving crises, and if necessary, win 
decisively in war.
                         ready to fight tonight
    The Army's primary focus on counterinsurgency for the last decade 
shaped a generation of Army leaders with invaluable skills and 
experiences. Nonetheless, this expertise comes at a cost. Today, most 
leaders of combat formations have limited experience with combined arms 
operations against enemy conventional or hybrid forces. Moreover, the 
current operational tempo and changing security environment continues 
to place significant demands on Army forces, stressing our ability to 
rebuild and retain combined arms proficiency. The Army currently 
provides 40 percent of planned forces committed to global operations 
and over 60 percent of forces for emerging demands from Combatant 
Commanders.
    The four components of readiness--manning, training, equipping, and 
leader development--describe how the Army prioritizes its efforts to 
provide trained and ready forces ready to fight and win our Nation's 
wars. Even though investing in readiness takes time and is expensive, 
the result ensures that our Soldiers remain the world's premier combat 
land force.
    The first component of readiness, manning, is about people--the 
core of our Army and keystone to innovation, versatility, and combat 
capabilities. Unlike other Services that derive power from advanced 
platforms, the collective strength of the Army is people. America's 
Army must recruit resilient, fit people of character and develop them 
into quality Soldiers. After recruitment, the Army develops men and 
women into competent Officers, Non-Commissioned Officers, and Soldiers 
who possess combat skills and values essential to the profession of 
arms. Unfortunately, in order to meet Regular Army end strength 
reduction requirements, the Army has involuntary separated thousands of 
mid-career Soldiers. While numbers are not the only factor, end 
strength reductions below the current plan will reduce our capability 
to support the National Military Strategy. Additionally, manning 
requires an appropriate mix of forces across the Army--Regular Army, 
Army National Guard, and the Army Reserve--to accomplish our National 
military objectives. To support Joint Force commitments worldwide over 
the last 15 years, the Army increased its operational use of the Army 
National Guard and the Army Reserve. We will continue this trend as we 
draw down the Regular Army. With the support of Congress, we can 
maintain the appropriate force mix capable of conducting sustained land 
combat operations worldwide with increased operational use of the Army 
National Guard and Army Reserve.
    To win on the battlefield, the Army must sufficiently resource 
training--the second component of readiness--to provide sufficient 
combat ready units in a timely manner. Building readiness from the 
individual Soldier to collective units across multiple echelons is time 
intensive. Moreover, a ready unit is not only prepared in the 
classroom; it is prepared by conducting rigorous and repetitive 
training under intense pressure and realistic battlefield conditions. 
Training at the highest level, the kind the Army conducts at combat 
training centers, brings all elements of the force together to practice 
firing, maneuver, and leader decisions against a skilled and determined 
enemy in all environmental conditions. In fiscal year 2016 and fiscal 
year 2017, the Army has programmed 19 combat training center rotations, 
giving Soldiers and leaders intensive combined arms maneuver 
experiences in anticipation of future combat. Key to success of the 
combat training center exercises is preparing at home station. Both 
combat training center exercises and home station training have 
declined in the past 15 years. Ultimately, training is the most 
essential aspect of readiness and we must rapidly improve this area. 
Therefore, we request funding for training that will enable our 
Soldiers to succeed.
    A trained army requires modern equipment to win--the third 
component of readiness. An unintended consequence of the current fiscal 
environment is that the Army has not equipped and sustained the force 
with the most modern equipment and risks falling behind near-peers. 
Instead, funding constraints forced the Army to selectively modernize 
equipment to counter our adversary's most significant technological 
advances. While we are deliberately choosing to delay several 
modernization efforts, we request Congressional support of our 
prioritized modernization programs to ensure the Army retains the 
necessary capabilities to deter and if necessary, defeat an act of 
aggression by a near-peer.
    The fourth component of Army readiness is leader development. As 
stated in the 2015 National Military Strategy, ``Military and civilian 
professionals are our decisive advantage.'' The Army is committed to 
build leaders of character who are technically and tactically 
proficient, adaptive, innovative, and agile. It takes time to develop 
Soldiers who can successfully lead, train, and equip a unit for combat. 
Leader development starts with a framework of formal training coupled 
with professional education and operational assignments. Professional 
Military Education serves as the principal way leaders combine 
experiences gained during operational assignments with current and 
emerging doctrinal methods in preparation for combat. As such, we have 
re-established the requirement to have our leaders complete military 
education prior to promotion. Ultimately, predictable funding provides 
the facilities and faculty that develop Army leaders who provide the 
Nation an advantage that neither technology nor weapons can replace.
    The deliberate decision to prioritize readiness while reducing end 
strength and decreasing funding for modernization places the Army in a 
readiness paradox: devoting resources to today's readiness invariably 
decreases investments for future readiness. While the Army prefers 
investments for current and future readiness, the security environment 
of today demands readiness for global operations and contingencies. We 
request the support of Congress to fund Army readiness at sufficient 
levels to meet current demands, build readiness for contingencies, and 
understand the mid and long term risks.
                      strengthening army readiness
    Before the Army can significantly increase readiness, there must be 
an infrastructure to support Army manning, training, equipping, and 
leader development. Army readiness occurs on Army installations--where 
Soldiers live, work, and train. Installations provide the platform 
where the Army focuses on its fundamental task--readiness. The Army 
maintains 154 permanent Army installations, and over 1100 community-
based Army National Guard and Army Reserve Centers worldwide. 
Regrettably, we estimate an annual burden of spending at least $500 
million/year on excess or underutilized facilities. In short, smaller 
investments in Army installations without the ability to reduce excess 
infrastructure jeopardizes our ability to ensure long-term readiness. 
To continue the efficient use of resources, the Army requests 
Congressional authority to consolidate or close excess infrastructure.
    As we spend taxpayer's dollars, the Army makes every effort to 
achieve the most efficient use of resources and demonstrate 
accountability. The Army is conducting a 25 percent headquarters 
personnel reduction to minimize the impact of our end strength 
reductions to our combat formations. These headquarters personnel 
reductions and future reductions will reduce authorizations for 
Soldiers and Civilians at a comparable rate.
    The Army is also reviewing the recommendations of the National 
Commission of the Future of the Army. After a thorough assessment, we 
intend to implement recommendations that increase Army readiness, 
consistent with statute, policy, and available resources. 
Implementation of any recommendation will include the coordinated 
efforts of the Army's three components: the Regular Army, the Army 
National Guard, and the Army Reserve. The Army may request the support 
of Congress to reprogram funding and, if needed, request additional 
funds to implement the commission's recommendations.
    In addition to the recommendations of the National Commission of 
the Future of the Army, the size and mix of Army forces relates to the 
capabilities required in the 2015 National Military Strategy. To 
respond to global contingencies or domestic emergencies, the Army has 
37 multicomponent units--units that have members of the Regular Army, 
Army National Guard, and the Army Reserve. Multicomponent units 
strengthen Army readiness by training together today and if needed, 
fighting together tomorrow.
    The Army has excelled in providing trained and ready forces for 
combatant commanders across a wide array of missions for the past 15 
years of war. This creates the impression we are ready for any 
conflict. In fact, only one-third of Army forces are at acceptable 
combat readiness levels, a byproduct of near continuous deployments 
into Iraq and Afghanistan. To address this readiness shortfall, the 
Army has redesigned our force generation model to focus on Sustainable 
Readiness: a process that will not only meet combatant commander 
demands, but will sustain unit readiness in anticipation of the next 
mission. This process synchronizes manning, equipping, training and 
mission assignments in such a way to minimize readiness loss and 
accelerate restoration of leader and unit proficiency. Designed for all 
three components and all types of units, our objective within current 
budget projections is to achieve two-thirds combat readiness for global 
contingencies by 2023. But, we will do everything possible to 
accelerate our progress to mitigate the window of strategic risk.
                    modernization: equipped to fight
    While rebalancing readiness and modernization in the mid-term, from 
2020 to 2029, the Army will not have the resources to equip and sustain 
the entire force with the most modern equipment. Informed by the Army 
Warfighting experiments, the Army will invest in programs with the 
highest operational return and we build new only by exception. We will 
delay procurement of our next generation platforms and accept risk to 
mission in the mid-term. The Army Equipment Modernization Strategy 
focuses on the five capability areas of Aviation, the Network, 
Integrated Air Missile Defense, Combat Vehicles, and Emerging Threats.
    The Army will resource the first capability area, Aviation, to 
provide greater combat capability at a lower cost than proposed 
alternatives. Key to the success of this initiative is the divestment 
of the Army's oldest aircraft fleets and distributing its modernized 
aircraft between the components. The Army will upgrade the UH-60 Black 
Hawk fleet and invest in the AH-64 Apache. These helicopters provide 
the capability to conduct close combat, mobile strike, armed 
reconnaissance, and the full range of support to Joint operations. 
Though aviation modernization is a priority, reduced funding caused the 
Army to decelerate fleet modernization by procuring fewer UH-60 Black 
Hawks and AH-64 Apaches in fiscal year 2017.
    Second, the Army must maintain a robust Network that is not 
vulnerable to cyber-attacks. This network provides the ability for the 
Joint Force to assess reliable information on adversaries, the terrain, 
and friendly forces. This information provides a decisive advantage by 
enabling the Joint Force commander to make accurate and timely 
decisions, ultimately, hastening the defeat of an adversary. Key 
investments supporting the network are the Warfighter Information 
Network-Tactical; assured position, navigation, and timing; 
communications security; and defensive and offensive cyberspace 
operations.
    The Army will invest in the third capability area, Integrated Air 
Missile Defense, to defeat a large portfolio of threats, ranging from 
micro unmanned aerial vehicles and mortars to cruise missiles and 
medium range ballistic missiles. The Army will support this priority by 
investing in an Integrated Air and Missile Defense Battle Command 
System, an Indirect Fire Protection Capability, and the Patriot missile 
system.
    Army improvements to Combat Vehicles ensure that the Army's fourth 
modernization capability area provides future Army maneuver forces an 
advantage over the enemy in the conduct of expeditionary maneuver, air-
ground reconnaissance, and joint combined arms maneuver. Specifically, 
the Army will invest in the Ground Mobility Vehicle, Stryker lethality 
upgrades, Mobile Protected Firepower, and the Armored Multi-Purpose 
Vehicle.
    Finally, the Army will address Emerging Threats by investing in 
mature technologies with the greatest potential for future use. The 
Army will invest in innovative technologies that focus on protecting 
mission critical systems from cyber-attacks. To this end, the Army will 
invest in innovative technologies focused on active protection systems 
(both ground and air), aircraft survivability, future vertical lift, 
directed energy weapons, cyber, and integrated electronic warfare.
    The Army modernization strategy reflects those areas in which the 
Army will focus its limited investments for future Army readiness. 
However, our implementation of the strategy will fall short if we delay 
investment in next generation platforms. We request the support of 
Congress to provide flexibility in current procurement methods and to 
fund these five capability areas--Aviation, the Network, Integrated Air 
Missile Defense, Combat Vehicles, and Emerging Threats--to provide the 
equipment the Army requires to fight and win our Nation's wars.
    We support the ongoing Congressional efforts to streamline 
redundant and unnecessary barriers in the acquisition process. Our 
adversaries are rapidly leveraging available technology; our 
acquisition process must be agile enough to keep pace. Aligning 
responsibilities with authorities only improves the acquisition 
process. The Army remains committed to ensuring that we make the right 
acquisition decisions and that we improve the acquisition process to 
maintain a technological advantage over adversaries and provide 
requisite capabilities to Soldiers.
         soldiers, civilians, and families: our greatest asset
    The Army's collective strength originates from the quality citizens 
we recruit from communities across America and place into our 
formations. We build readiness by training and developing American 
citizens into ethical and competent Soldiers who are mentally and 
physically fit to withstand the intense rigors of ground combat. 
Additionally, the Families of our Soldiers make sacrifices for the 
Nation that contribute to Army readiness and play an important part in 
achieving mission success. As a result of the dedication and sacrifices 
of Soldiers and their Families, the Army is committed to providing the 
best possible care, support, and services.
    The Army is committed to improve access of behavioral health 
services. Beginning in 2012, the Army transformed its behavioral 
healthcare to place providers within combat brigades. These embedded 
behavioral health teams improve Soldier readiness by providing care 
closer to the point of need. However, the Army only has 1,789 of the 
2,090 behavioral health providers required to deliver clinical care. 
The Army will continue to use all available incentives and authorities 
to hire these high demand professionals to ensure we provide our 
Soldiers immediate access to the best possible care.
    The Army provides an inclusive environment that provides every 
Soldier and Civilian equal opportunities to advance to the level of 
their ability regardless of their racial background, sexual 
orientation, or gender. This year, the Army removed legacy gender-based 
entry barriers from the most physically and mentally demanding 
leadership school the Army offers--the United States Army Ranger 
School. To date, three female Soldiers have graduated the United States 
Army Ranger School. We increasingly recognize that we derive strength 
from our diversity, varying perspectives, and differing qualities of 
our people. The Army welcomes the increased opportunities to bring new 
ideas and expanded capabilities to the mission.
    The Army does not tolerate sexual assault or sexual harassment. We 
are committed to identifying and implementing all proven methods to 
eliminate sexual harassment and sexual assault. As an example, the 
United States Army Cadet Command shared sexual harassment and sexual 
assault prevention best practices with universities and organizations 
nationwide. Currently, Cadet Command has 232 Army Reserve Officers 
Training Corps programs that have signed partnership charters with 
their colleges or universities. These cadets actively participate in 
education and awareness training on campuses that include programs such 
as ``Take Back the Night'' and ``Stomp Out Sexual Assault.'' Cadets 
also serve as peer mentors, bystander intervention trainers, and sexual 
assault prevention advocates.
    Prevention is the primary objective of the Army Sexual Harassment/
Assault Response and Prevention (SHARP) program. However, when an 
incident does occur, the Army initiates a professional investigation to 
hold the offender accountable while providing best-in-class support and 
protection to the survivor. Additionally, the Army performs assessments 
of SHARP program strategies to measure effectiveness. To increase 
effectiveness, the U.S. Army Medical Command ensures that every 
Military Treatment Facility operating a 24/7 Emergency Room has a 
trained and qualified Sexual Assault Medical Forensic Examiner. Our 
enduring commitment to the SHARP program strives to eliminate sexual 
assault and sexual harassment, strengthen trust within our formations, 
and ensure our Soldiers are combat ready.
    Another program committed to keeping the faith and improving 
quality of life is the Soldier For Life Program. The Soldier For Life 
program connects Army, governmental, and community efforts to build 
relationships that facilitate successful reintegration of our Soldiers 
and their Families into communities across America. Currently, the 
Soldier For Life program offers support to 9.5 million Army Veterans 
and Soldiers. Moreover, the Army plans to support the transition of 
374,000 Soldiers in the next 3 years. In 2015, veteran unemployment in 
the United States was at a 7-year low and employers hired veterans at 
higher rates than non-veterans. Additionally, the Army distribution of 
fiscal year 2015 unemployment compensation for former service members 
was down 25 percent, $81.8 million, from fiscal year 2014. The Army 
seeks to continue the positive trends for Army Soldiers, Family 
Members, and Veterans in 2015. Ultimately, this program provides a 
connection between the Soldiers and the American people.
    The Army's most valuable asset is its people; therefore, the well-
being of Soldiers, Civilians, and their Family members, both on and 
off-duty remains critical to the success of the Army. Taking care of 
Soldiers is an obligation of every Army leader. The Army focuses on 
improving personal readiness and increasing personal accountability. 
Programs like ``Not in My Squad,'' first championed by Sergeant Major 
of the Army Daniel Dailey, empower Army leaders to instill Army values 
in their Soldiers and enforce Army standards. Our Soldiers and 
Civilians want to be part of a team that fosters greatness. It is 
through personal conduct and proactive leadership that we seek to 
improve on a culture of trust that motivates and guides the conduct of 
Soldiers. The American people expect and continue to deserve an Army of 
trusted professionals.
                       the army's budget request
    The Army requires sustained, long term, and predictable funding. We 
thank Congress for the Bipartisan Budget Act of 2015, which provides 
short-term relief and 2 years of predictable funding. However, funding 
levels are not keeping pace with the reality of the strategic 
environment and global threats. Moreover, while the current budget 
provides predictability, it does so at funding levels less than 
envisioned by the President last year. In short, the fiscal year 2017 
Army Budget base request of $125.1 billion is $1.4 billion less than 
the fiscal year 2016 enacted budget of $126.5 billion. As a result, the 
Army will fully fund readiness, reduce funding for modernization and 
infrastructure maintenance, and continue programmed end strength 
reductions.
    Our major goals in this budget request are to: improve readiness by 
fully manning in combat units, increase combat power, streamline 
headquarters, improve command and control, and conduct realistic 
combined arms training. The Army will also modernize in five capability 
areas: Aviation, the Network, Integrated Air Missile Defense, Combat 
Vehicles, and Emerging Threats. Additionally, the Army will ensure the 
recruitment and retention of high quality Soldiers of character and 
competence. The fiscal year 2017 budget also provides adequate funding 
so that we can provide Soldiers, Civilians, and their Families the best 
possible quality of life. Absent additional legislation, the Budget 
Control Act funding levels will return in fiscal year 2018. This 
continued fiscal unpredictability beyond fiscal year 2017 is one of the 
Army's single greatest challenges and inhibits our ability to generate 
readiness. This will force the Army to continue to reduce end strength 
and delay modernization, decreasing Army capability and capacity--a 
risk our Nation should not accept.
                               conclusion
    The Army's fiscal year 2017 Budget prioritizes readiness while 
reducing our end strength and delaying modernization. Prioritizing Army 
readiness ensures the Joint Force has the capability to deter, and when 
required, fight and win wars in defense of the United States and its 
national interests. To fulfil this obligation to the Nation, the Army 
requires predictable and sufficient funding to build readiness, 
maintain Army installations, modernize equipment, and provide Soldier 
compensation commensurate with their service and sacrifice.
    The Nation's resources available for defense are limited, but the 
uncertainties of today require a ready force capable of responding to 
protect our national interests. An investment in readiness is the 
primary means that allows the Army to meet the demands of our Combatant 
Commanders and maintain the capacity to respond to contingencies 
worldwide. By building readiness, the Army provides the Joint Force the 
ability to respond to unforeseeable threats, decisively defeat our 
enemies, and advance the Nation's national security interests. As a 
result of our current fiscal uncertainty, the Army prioritizes today's 
readiness and accepts risk in modernization, infrastructure 
maintenance, and sustained end strength in the mid and long term. We 
request the support of Congress to fund Army readiness at sufficient 
levels to meet current demands, build readiness for contingencies, and 
understand the mid and long term risks. Ultimately, the American people 
will judge us by one standard: that the Army is ready when called upon 
to fight and win our Nation's wars.

    Senator Cochran. Thank you very much. General Milley, we 
welcome you and ask if you have an opening statement, you may 
proceed.
STATEMENT OF MARK A. MILLEY, ARMY CHIEF OF STAFF
    General Milley. Thank you, Chairman Cochran and Ranking 
Member Durbin, and all the distinguished members of the 
committee for the opportunity to appear before you today to 
talk about your Army, and we appreciate your consistent support 
to our soldiers, civilians, and family members.
    Six months ago when I was confirmed as the Chief of Staff, 
39th Chief of Staff of the United States Army, I committed to 
you and the American people to ensure that this Nation has the 
Army it needs, is postured for an uncertain and increasingly 
complex future, and that we must remain the world's most 
capable, versatile, and lethal ground force, valued by our 
friends, and absolutely feared by our enemies.
    This mission has one common thread, and that thread is 
readiness, combat readiness. A ready Army that is manned, 
trained, equipped, and well led is the foundation of the Joint 
Force, in order to conduct missions, importantly to deter, and 
if deterrence fails, to defeat a wide range of state and non-
state actors today, tomorrow, and into the future.
    Fifteen years of continuous counterinsurgency operations 
combined with recent reduced and unpredictable budgets has 
created a gap in our proficiency to conduct combined arms 
operations against enemy conventional forces resulting in an 
Army today that is less than ready to fight and win against 
emerging threats.
    America is a global power, and our Army must be capable of 
meeting a wide variety of threats under varying conditions 
anywhere on earth.
    Our challenge today is to sustain the counterterrorists and 
counterinsurgency capabilities that we have developed to a high 
degree of proficiency over the last 15 years of war, while 
simultaneously rebuilding the capability to winning ground 
combat against higher end threats. We can wish away this latter 
case, but we would be foolish as a Nation to do so.
    This budget prioritizes readiness because the global 
security environment is increasingly uncertain and complex. 
Today, in the Middle East, South Asia and Africa, we see 
radical terrorism and the malign influence of Iran threatening 
the regional order.
    In Europe, Russia has modernized its military, invaded 
several sovereign countries, and continues to act aggressively 
towards its neighbors using multiple means of national power. 
In Asia, in the Pacific, there are complex systemic challenges 
with a rising China that is increasingly assertive militarily 
and a very provocative North Korea, both situations creating 
the conditions for potential conflict.
    While we cannot forecast precisely where and when the next 
contingency will arise, it is my professional military view 
that if any contingency happens, it will likely require a very 
significant commitment of U.S. Army ground forces.
    If one or more possible unforeseen contingencies happen, 
then we the United States risk not having ready forces 
available to provide flexible options to our national 
leadership, and if committed, we risk not being able to 
accomplish the strategic tasks at hand in an acceptable amount 
of time, and most importantly, we risk incurring significantly 
increased U.S. casualties.
    In sum, we risk the ability to conduct ground operations of 
sufficient scale and ample duration to achieve strategic 
objectives or win decisively at an acceptable cost against the 
highly lethal hybrid threat or a near peer adversary in the 
unforgiving environment of ground combat.
    The Army is currently committed to winning our fight 
against radical terrorists and deterring conflict in other 
parts of the globe. The Army current provides 46 percent of the 
annual DOD global combatant command demand for military forces 
of any type, and 64 percent of all the emerging combatant 
commander demand, with as the Chairman mentioned, almost 
190,000 soldiers currently committed in 140 countries globally.
    To sustain current operations and to mitigate the risk of 
deploying an unready force into future combat operations, the 
Army will continue to prioritize and fully fund readiness, 
strength, modernization, and infrastructure. While the Army 
prefers investment for both current and future readiness, the 
security environment of today and in the near future drive 
investment into readiness for global operations and potential 
contingencies.
    Specifically, we ask your support to fully man and equip 
our combat formations, conduct realistic combined arms combat 
training of both home stations and our combat training centers, 
and additionally, we ask your support for our modernization in 
five key capability areas--aviation, command and control 
network, integrated air and missile defense, combat vehicles, 
and emerging threats programs.
    Finally, we ask your continued support to our soldiers and 
families to recruit and retain high quality soldiers of 
character and competence.
    In order to best utilize those resources, we intend to 
continue to streamline our headquarters, ruthlessly cut 
activities if they do not contribute to the effective fighting 
force, and we ask Congress to consider another round of BRAC 
(Base Realignment and Closure).
    We request your support for the proposed fiscal year 2017 
budget, and we thank Congress for the Bipartisan Budget Act of 
2015, which provided short term relief.
    With your support, the Army will fund readiness at 
sufficient levels, build readiness for contingencies, and 
invest selectively in the readiness of our future force.
    Thank you for the opportunity to testify, and I look 
forward to your questions.

                           LAKOTA HELICOPTERS

    Senator Cochran. Thank you very much. We appreciate your 
leadership, and we know you have to make some hard choices and 
you have made some in connection with Army aviation assets.
    I specifically was concerned to learn that the Lakota 
helicopters in the budget request have been zeroed out. That is 
my first question, to what extent is that going to affect your 
ability to carry out the missions that you both just described? 
Mr. Secretary, will you go first?
    Mr. Murphy. Mr. Chairman, obviously aviation is our most 
expensive asset that we have, but it is critically important, 
and we are looking at with the new commission that came out all 
the aviation assets and how we implement that to the total 
force. That is Active Duty, National Guard, and Reserve.
    We have divested in other aviation assets such as the Kiowa 
Warrior, as you know, Mr. Chairman. As far as Lakota, we 
continue to make sure we are doing everything possible to have 
the best fighting force and the best assets.
    We do not want a fair fight, as you know, Mr. Chairman, 
with our enemy. We want the technical and tactical advantage 
every step of the way. I know the chief and I are working as 
battle parties on this to make sure we can do what is necessary 
to fund what is needed.
    Senator Cochran. General Milley.
    General Milley. Chairman, the Lakota is not a combat 
helicopter. It is an administrative helicopter that we use in a 
variety of scenarios. We use it for training out at Rucker. We 
use it out at the National Training Center and Joint Readiness 
Training Center. The National Guard gets good use of it, et 
cetera.
    In this budget, we sustained the current Lakota's we have 
but we have to divest ourselves of those because we have to cut 
anything that does not have to do with our core combat tasks.
    As you know, the congressionally mandated Commission on the 
Future of the Army, and there are a variety of aviation 
initiatives in there, some of which includes increasing 
Lakota's for the training base down at Ft. Rucker.
    We will take a look at that, but it is not a combat 
helicopter, so we chose to take some risk there.
    Senator Cochran. Senator Durbin.

                            ARMY CONTRACTORS

    Senator Durbin. Thanks very much, Mr. Chairman. Let me ask 
a question related to saving money and spending money. When I 
was on the Simpson-Bowles Commission, I asked the Department of 
Defense how many contractors does the Department of Defense pay 
for. They could not tell me. They just did not know the 
numbers.
    It turns out that since 2008, we have asked each of the 
branches of the military to report to us about contractors. The 
reason it is important is that a contractor employee cost about 
three times as much as a civilian employee.
    When I look at your budget and the budget request cuts more 
than 700 civilian jobs while increasing the full time 
equivalent of contractor jobs by more than 2,300, it seems like 
we are going in the wrong direction.
    Would it not save money for us to continue with civilian 
employees at one-third of the cost of contractor employees?
    Mr. Murphy. Senator Durbin, I will give you the answer, we 
have 146,000 contractors right now. The Army team itself, as 
you know, is 1.4 million people, about 1,015,000 soldiers, and 
that is total force, about 246,000 civilians, and I would agree 
with you, they are part of the team and they are cost 
effective.
    I will say, as you mentioned, we have had to cut with the 
downsizing of our Army, not just our soldiers but also our 
civilians, we have cut about 37,000 civilians over the last few 
years. It is at that number, 246,000 and it was in the 280,000s 
previously.
    As far as the contractors, we have about 146,000 
contractors right now, and I share your concern on the cost of 
them. A lot of those contractors are not full time. Some of 
them are part time on missions and they hire ones out, whether 
that is in Iraq, Afghanistan, or elsewhere.
    I am going through the budget like a bulldog on a bone to 
find cost savings to make sure that we have combat capability 
to fight and win our Nation's wars. Chief Milley and I, as he 
just mentioned, we had to make some ruthless decisions which 
affect the lives of folks, but these are decisions that need to 
be done during these budget constraints that are place on our 
Army.
    Senator Durbin. Secretary, we have tried to ask for more 
information from each of the branches so we know on the 
contractor employees what is happening, and the report from the 
GAO recently suggested that about 25 percent of your 
contractual work was not being reported. This predates your 
arrival. I am not pointing a finger.
    I have to tell you that if we are going to spend three 
times as much for contractor employees and you are cutting 
civilians and increasing contractor employees, we need to have 
some more data to make sure that we are not making the wrong 
decision.

                     ARMORED MULTI-PURPOSED VEHICLE

    Let me ask you this question as well. The Decker-Wagner 
Report in 2011 found that the Army had spent $1 billion a year 
every year since 1996, that is 15 years, on programs that were 
ultimately cancelled. A billion dollars a year. Ground combat 
vehicle, future combat systems, Crusader, Comanche helicopters, 
armed reconnaissance helicopters, to name a few.
    Now we hear that your AMPV program is going to have--I 
don't know if it is a cost overrun, but an additional charge of 
$2.6 billion. What was the reason for this cost growth of $2.6 
billion in the AMPV program, and does the Army have its hands 
around this Decker-Wagner Report conclusion that when it comes 
to contracting out, you have had some serious challenges?
    Mr. Murphy. Senator, there is no doubt that the Army has 
had some serious challenges when it came to modernization and 
its acquisition programs. I am aware of the report. I do think 
there is new leadership within the building that are on top of 
this to make sure that we are not wasting taxpayer dollars, 
especially as to the fiscal constraints that are placed on us, 
even more so.
    As far as the AMPV program, I will get you that 
information, like I will get you that information on the 
contractors that you requested previously, and I will be very 
responsive to you and any other members on this committee or in 
the Senate to get you the answers that you need.
    [The information follows:]

    The Army did not have a $2.6 billion cost growth as identified in 
the Congressional Research Service Report (CRS), dated October 15, 
2015. The CRS misidentification of a $2.6 billion cost growth 
discrepancy is primarily the result of using figures from both an early 
program estimate (pre-Program of Record), as well as the Program of 
Record Independent Cost Estimate for the calculation. In addition to 
using both non-Program of Record and Program of Record estimates, the 
discrepancy is exacerbated because the early program estimate figures 
used in the report were not adjusted for inflation over 26 year program 
life giving the impression of a significant program cost growth. The 
AMPV program is fully funded to the Independent Cost Estimate, and the 
Army continues to manage large acquisition programs closely to ensure 
that there is no impact to budget that could deter the development of 
the Army's largest weapons development program.

                    EUROPEAN REASSURANCE INITIATIVE

    Mr. Murphy. We need to be partners with you to make sure 
that we are not just asking for dollars, but also being good 
stewards of those dollars once you give them to us.
    Senator Durbin. General Milley, my concluding question is 
on the European initiative. What kind of buy in do we have from 
our NATO allies to make this stand in Europe to stop any 
potential aggression by Putin?
    General Milley. Thanks, Senator. Just one comment on AMPV. 
I became aware of that cost overrun. I am going to head out 
there to take a look at this whole thing, and I will report 
back to you on what I see as my increased role in acquisition. 
I am going to dig into the AMPV piece.
    [The information follows:]

    I have found that the cost overruns for the AMPV program were 
incorrectly reported. The program is, in fact, on track.
    The acquisition reforms included in the fiscal year 2016 National 
Defense Authorization Act (fiscal year 2016 NDAA) are a good start 
towards improving the acquisition process by strengthening my role as 
its principal customer. As part of my increased role in acquisition, I 
have re-invigorated my Army Requirements Oversight Council and am using 
that forum to implement the new authorities afforded to me by the 
fiscal year 2016 NDAA. I am also working a number of other efforts with 
Honorable Murphy to improve the Army's acquisition process and ensure 
the customer is adequately represented throughout. We will also 
continue to explore steps that would improve the process' agility. We 
appreciate Congress' support in reducing some of the cumbersome 
oversight and bureaucracy while placing decision authority and 
accountability within the Services.

    General Milley. With respect to the ERI, you know, Russia, 
as I mentioned in my opening statement, in my view, and I said 
it during confirmation testimony and elsewhere, Russia is the 
number one threat to the United States, and the reason is 
because they are the only country on earth that has the 
capability to be an existential threat to the United States.
    In addition to not just having the capability, they have 
also demonstrated aggressive intent, at least since 2008, by 
invading countries and using national power in ways that are 
not favorable to U.S. interests.
    The Europeans have reacted to that as well as the United 
States. I went on a recent trip over there. I think what I saw 
in Scandinavia, what I saw in Germany, what I saw in Poland, 
France, the U.K., and other countries, and I met with each of 
the Army chiefs of all the NATO counterparts, they are very 
much in favor of additional U.S. support over there in order to 
deter Russia from further aggression. I think we are going to 
get good support in that regard.
    As for them, I think that we are in a period of about 10 or 
15 years where the European countries have reduced their 
military significantly in terms of capability, size, 
technologies, weapon systems, et cetera. That realization is 
becoming known to them. Some of the countries are turning that 
around, others not just yet.
    The threat is clear, and it depends on which country you 
are. Some countries consider the threat from the East, from 
Russia, the most significant, others consider the threat from 
the South, which is the refugee crisis coming out of the 
instability to the Middle East and North Africa, the greatest 
threat.
    I do believe there is a clear recognition amongst at least 
the military leadership that I met with about the Russian 
threat and what needs to be done.
    Senator Cochran. Thank you, Senator. The distinguished 
Senator from Alabama, Mr. Shelby.

                              NORTH KOREA

    Senator Shelby. Thank you, Mr. Chairman. General Milley, it 
has been acknowledged that North Korea possesses several 
hundred short and medium range ballistic missiles that could 
reach targets on the Korean Peninsula or Japan.
    From an operator's perspective, could you describe what 
benefits the Terminal High Altitude Area Defense we know as the 
THAAD system would provide U.S. forces in the Republic of 
Korea?
    General Milley. The development of short range, medium 
range, and actually ICBMs, that missile technology is worldwide 
proliferated. Specific to Korea, North Korea has developed a 
lot of these technologies. The deployment of THAAD and Patriot 
are critical to the defensive posture that the United States 
has in order to deter a North Korean attack.
    Specifically, we are looking at medium range to take out 
the short range ballistic missiles. That will be a critical 
asset in support of General Scaparrotti----
    Senator Shelby. Very important in other words.
    General Milley. Absolutely.
    Senator Shelby. It has also been said that North Korea is 
committed to developing a long range nuclear armed missile that 
is capable of posing a direct threat to the United States. The 
ground-based midcourse defense, GMD system, I believe is the 
only system in place that offers protections for the American 
people from such a limited threat.
    Could you tell us what GMD at the moment contributes to the 
Army's mission, and explain what it provides from an 
operational standpoint.
    General Milley. The GMD is part of an integrated air 
defense system that includes aircraft, it includes missiles, it 
included Aegis cruisers, and it includes the ground missile 
defense contributions from the Army, and a wide variety of 
radars that are spread out throughout the Asia Pacific region.
    Together collectively, the synergistic effect of all of 
them provide the United States a defense against the long range 
missile attacks coming out of North Korea.

             NATIONAL COMMISSION ON THE FUTURE OF THE ARMY

    Senator Shelby. Thank you. Mr. Secretary, I have a question 
for you. The National Commission--I believe this was alluded 
to--the National Commission on the Future of the Army issued 
recommendations last month that would impact Army aviation and 
aviation training.
    The final report suggested that proficiency, which is 
important, would require additional flying hours, and warned 
that declines in readiness and possible increases in accident 
rates could occur if additional training hours were not 
allocated.
    What do you expect, Secretary Murphy, dealing with the 
future of pilot training, how important is it to our readiness 
and so forth, and how would this impact the Army Aviation 
Center and the Army itself?
    Mr. Murphy. Well, Senator, it is critical. You heard my 
opening statement. We train like we fight. We need to make sure 
that we have the tactical and technical advantage over our 
enemies.
    The chief and I got briefed by the commission where they 
were talking about two additional combat flight hours a month. 
We are looking at that. As you know, that comes with a price. 
The chief and I are going through, we have a commission which 
is a Joint Force commission, a tri-chaired team, that are 
looking through the commission reports.
    As you mentioned, there are 63 recommendations. Some cost 
money, some do not. We are trying to make sure we are doing the 
cost-benefit analysis but let me be very clear, we believe in a 
total force, that we need to get back to our basics on that.
    We do not just have a 10 Division Army. We have an 18 
Division Army. We have assets in the National Guard, Reserve, 
and Active Duty aviation assets that we need to make sure we 
are utilizing in the best of our ability.
    Senator Shelby. If we shortchange our aviation, Army 
aviation, that would cripple ultimately the Army's ability to 
project force, would it not?
    Mr. Murphy. Senator, we are looking at--I thought it was a 
very thoughtful commission. They have great ideas. We are 
working with them and with the tri-chaired group, with leaders, 
general officers from all three components of our total Army to 
make sure we can implement these things, but it is critically 
important to make sure that our aviators are the best aviators 
on the battlefield; absolutely.
    Senator Shelby. These were recommendations. Ultimately, 
this subcommittee and this committee will decide what is going 
to be funded, where; is that correct?
    Mr. Murphy. Yes, Senator. When I taught at West Point, I 
used to joke that we have three branches of government, and one 
was not more powerful than the other, and it was like rock, 
paper, scissors, and you all controlled the budget, and we 
execute.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    General Milley. Senator, could I just add a quick comment?
    Senator Shelby. Yes, sir, General.
    General Milley. The flying air program is critical to 
maintaining our capabilities for aviation. We do have great 
aviators, but we have reduced it from 14 to 15 hours per 
aviator down to about 11. We need to crank that back up because 
we do accept some risk there and we do not want to accept risk. 
We want the most capable aviators the world has ever seen. We 
do need some help there.
    Senator Shelby. There is nothing like efficiency and 
proficiency in the military or in business, but in this case, 
the military.
    General Milley. Absolutely.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator. The distinguished 
Senator from Vermont, Senator Leahy.

             NATIONAL COMMISSION ON THE FUTURE OF THE ARMY

    Senator Leahy. Thank you, Mr. Chairman. I appreciate you 
being here, and General Milley, thank you for taking the time 
for the meeting yesterday morning, too.
    I must echo the remarks of Senator Durbin about the Senate 
actually doing its work in confirming nominees. It is a 
disservice to the country, it is a disservice to the Senate.
    General Milley, I understand the report of the Commission 
on the Future of the Army is still under review by you and your 
staff. Since you have taken command, you have implemented 
numerous changes, certainly within the spirit of the report to 
develop an army.
    What would you do at headquarters putting that total force 
initiative into play? I know you have been working extremely 
hard on it, and I appreciate that.
    General Milley. We want to put teeth into total force, we 
want to walk the walk, not just talk the talk sort of thing. In 
my view, the National Guard and the United States Army Reserve 
are fundamental. It is not just a bumper sticker.
    The United States of America cannot conduct and sustain the 
land and combat operations without the Guard and the Reserve. 
It is that simple. It was designed that way back when by the 
Congress, and that is still true today. It is fundamental.
    With respect to the National Commission, what we have done 
is we have the report, our initial sense is that we like what 
we have been reading so far. There are 63 recommendations in 
there. We are working through those 63 recommendations one by 
one.
    There are probably about 10 to 15 of those recommendations 
that come with a pretty heavy price tag, so we have to look at 
those hard. The others are either relatively inexpensive or at 
no cost at all and we will likely take those on. There are a 
few that we do not think are worth pursuing.
    We are going through that very deliberatively, the 
Secretary and I, with the National Guard Bureau, General Grass, 
with Tim Kadavy from the Army National Guard, and General 
Talley from the U.S. Army Reserve.
    The five of us as a group with our Vice Chief of Staff of 
the Army will consider all of the recommendations in detail, go 
through all the rigor, all the math, all the numbers, and we 
will come back with a recommendation to Congress and the 
Department of Defense as to which ones we think are the best 
ones to implement.
    Senator Leahy. Thank you. I know the Air Force went through 
all these things and have their total force continuum. Is that 
a model that could be applied in the Army?
    General Milley. It is. In fact, we are taking pages out of 
the Air Force play book. We set up a group of three one star's, 
a trifecta, if you will, to establish a set of planning teams 
to literally go through every one of those recommendations. 
They will stay in existence to help us supervise execution of 
the implementation.

                               MUNITIONS

    Senator Leahy. Thank you. Secretary Murphy, several years 
ago the Army began exploring the development of small precision 
initiatives, something 20 years ago we could not even have 
considered, but now with the kind of war zones we face, we are 
able to do precise munitions and go after our enemies and at 
the same time protect civilians.
    What is the current status of the research and technology 
on small munitions, mortars, and artillery?
    Mr. Murphy. Senator, I would say it is night and day how we 
have evolved as a military, as you mentioned. Our country has 
certain values, and we go after the people that have hurt our 
families. We kill them or capture them. We do so to make sure 
we limit any way possible collateral damage.
    Whether it is artillery shells or whether it is even 
munitions as far as the bullets that we utilize, again, coming 
from Pennsylvania, we have to worry about the new bullets that 
we utilize, the ranges that we have, the bullets ricochet off 
now like never before because they are more effective and 
lethal and accurate. That is positive. It goes back to the 
theory of we do not want to have a fair fight. We want to have 
the technical and tactical advantage over our enemy. When it 
comes to munitions, we are doing so, and doing this through a 
public/private partnership. It is going to your communities and 
asking these researchers and academia to give us the best 
materials.
    Senator Leahy. The reason I asked, I do not want to sound 
parochial, but I went to a plant in Vermont, and the things I 
saw they were able to develop, mortar shells and bombs, is 
unbelievable. When I first came on this committee, it would 
have been inconceivable. I would hope that you are exploring 
those kinds of things, whether it is from my State or any other 
State, that we do this kind of highly technical development.
    Mr. Murphy. Absolutely. You have our commitment. Yes, sir.
    Senator Leahy. Thank you.
    Senator Cochran. Thank you, Senator. The distinguished 
Senator from Montana, Mr. Daines.

                 ARMY RESEARCH LAB SOLDIER INITIATIVES

    Senator Daines. Thank you, Mr. Chairman. It is great to see 
you again today, General Milley, Secretary Murphy. As a proud 
Senator of the birth place of the Army Special Forces, the 
infamous Devil's Brigade from Fort Harrison back in the 1940s, 
thank you for your leadership to our Nation as well as to our 
States, and thank you for what you do for our troops deployed 
overseas and those at home who must remain ready for whatever 
comes next, and we know there is plenty to come next.
    I want to start by talking about the Army Research Lab. As 
you know, the Army Research Lab has strong partnerships with 
universities across this Nation. I am pleased to see the open 
campus initiative, including partnerships with universities in 
Montana.
    In 2001, the Army's Science Board concluded that the weight 
carried by soldiers leads to decreased mobility and increased 
fatigue, as well as injury.
    Its recommendation that soldiers carry no more than 50 
pounds for any length of time has not proven possible in the 
field, despite a partnership with leading universities across 
the country in 2009 and even developing some lower weight gear, 
our soldiers are still carrying well over 50 pounds under 
combat loads.
    A question first of all is as we look at the budget, does 
the research and development in the materials technology this 
year cover the full cost to get to really achieving the goal 
here of finding a way to reduce the load and get it under 50 
pounds?
    General Milley. We think there is a balance. We tried to 
flat line research and development. We have lowered the amount 
of procurement, increased O&M for readiness, but for research 
and development, it is a flat line, not as much as we want for 
research and development.
    Our modernization, we need to invest more money in, but 
given the top line, we have what we have, and that is what we 
put in, about 18 percent.
    With respect to the soldier's load and the soldier 
initiatives, we have an entire program that is dedicated 
towards developing lightweight materials for equipment, both 
personal protection equipment and load carrying equipment, 
along with weapons and munitions and so on. Anything to lighten 
the load of the soldier is important. It is survival. It is 
critical to the soldier's survival.
    Since the time of the Romans, we have been carrying a lot 
of weight on individual soldiers, and today is no different, 
and in some cases more, especially now with the introduction of 
body armor.
    The research and development for lighter weight materials 
is really critical, and it has to do with the survivability of 
soldiers on a battlefield.

            TERMINAL HIGH ALTITUDE AREA DEFENSE SYSTEM COST

    Senator Daines. I want to follow up on a question Senator 
Shelby asked earlier about North Korea. Coming from a State 
like Montana, we have a third of the ICBMs in our State. We 
understand the power behind nuclear weapons and what is going 
on in North Korea I think greatly concerns all Americans.
    On the THAAD system, I understand the cost is about $1.6 
billion. My question is South Korea responsible for paying half 
of the U.S. Force's Korea budget, would their costs increase 
with a deployment of the THAAD system?
    General Milley. I will have to get back to you on the cost 
of that, Senator, and coordinate with Admiral Harris and 
General Scaparrotti as to the cost, and then coordinate with 
DOD. I do not know the answer to that question. I will have to 
get back to you.
    [The information follows:]

    If U.S. air and missile defense capabilities are increased in South 
Korea, the Army will work with OSD and the Department of State to 
explore cost sharing through the Special Measures Agreements, which 
cover military construction, logistics support, and labor. These 
agreements are negotiated periodically with the current agreement going 
through calendar year 2018.

                     ASIAN PACIFIC TERRORISM THREAT

    Senator Daines. Thank you. Moving over to Southeast Asia 
for a moment, in 2002, the United States and the Philippines 
established the Joint Special Operations Task Force to help the 
Philippine forces fight Islamic terrorist organizations based 
in the Southern Islands.
    I spent 5 years working in Southeast Asia in the private 
sector, used to spend time right where some of these activities 
are occurring.
    The Joint Task Force made up of Army, Navy, and Marine 
personnel began to withdraw in 2014, but just this year, those 
same terrorist organizations joined together and pledged 
allegiance to the Islamic State.
    The Philippine forces continues to fight these terrorist 
organizations today in their Southern Islands. We witnessed the 
Islamic State strike just last month in Indonesia, their 
presence in the Asian Pacific is just as clear as it is 
throughout the Middle East.
    My question is you are requesting $1.1 billion for the Army 
in the Asian Pacific theater this year. How much did terrorism 
in the region play a role in establishing that amount?
    General Milley. From an operational standpoint, it played a 
role. I would not necessarily put a percentage of how much it 
played a role but the three key things as I look at Asia 
Pacific and in support of Admiral Harris and what USPACOM is 
trying to do in the Pacific, one is a rise in China.
    I think if we were historians in 2016 or flash forward 100 
years to 2116 and look backwards, I think someone would say 
that the definitive international political condition that 
defined the century would be the United States and China.
    The second piece is North Korea, and a third is terrorism, 
because we know that the Islamic State and terrorists are not 
just in Iraq/Syria. They have spread into North Africa, they 
are in the Caucasus, they are in the Afghan/Pak region, and 
they are in the Pacific.
    It is a big concern. That was one of the factors from a 
security standpoint to support our Army efforts in the Asia 
Pacific region.
    Senator Daines. Thank you, General Milley.
    Senator Cochran. The Senator from Washington, if we have 
agreed to go out of turn with Senator Schatz's forbearance, is 
that all right?
    Senator Murray. Mr. Chairman, I appreciate that, and I know 
Senator Tester has a huge time line, everyone does, so I will 
keep my questions very short. I do appreciate it.
    Senator Cochran. I thank the senator.

                            SOLDIER FOR LIFE

    Senator Murray. Secretary Murphy, I just wanted to ask, in 
your written remarks you mentioned the Soldier For Life 
Program. Your emphasis on embedded behavioral health 
professionals at the brigade level and some of the remarkable 
efforts that the Army is making towards ending sexual assault 
and harassment, I just want to thank you for that. It is a 
priority and incredibly important.
    I just want to specifically commend you on recognizing the 
importance of transition programs and making the Soldier for 
Life Program of record in 2017. Do you have the resources to 
transition 105,000 soldiers?
    Mr. Murphy. Senator, thank you for the comment. I know we 
will be addressing this in the POM coming up. It is not in this 
budget as far as the program record, but that is the plan. 
Again, it is the right thing to do, not just morally, but also 
fiscally, as you mentioned.
    For the last 5 years, the Department of Defense spent $4.6 
billion on unemployment, because we are responsible for that. 
That is a lot of brigade combat teams. The Army has cut our 
costs from about $1 billion a year to $242 million last year. 
$242 million is almost a brigade combat team.
    We need to make sure we do a better job at that transition, 
and that is why I fully support and it is a top priority of 
mine, the Soldier for Life Program. We cannot just say, well, 
we are responsible for fighting, winning the Nation's wars, 
taking care of our soldiers, and then we pawn them off or turn 
them over to the VA. They are loyal to us. They are part of our 
family, they are part of our organization.
    That is why yes, we have 1.4 million people on our team 
right now, but we also have 9.5 million American Army veterans 
out there. To have that connected tissue to the Soldier for 
Life Program, which also by the way will also help us with 
recruitment and other things, it is critically important.

                        JOINT BASE LEWIS-MCCHORD

    Senator Murray. Thank you for that. I also wanted to say I 
appreciate the work that the Army has done to find budget 
savings, including by increasing home base training, but that 
requires some pretty good communication and cooperation with 
the local communities.
    In my home State of Washington, this increase in home 
station training has led to this proposal for a large expansion 
of helicopter training areas in the North Cascades and 
Southwest Washington that Joint Base Lewis-McChord is currently 
working through their environmental assessment.
    I wanted to ask you is the Army following the requirements 
of the Wilderness Act and other existing land management 
requirements, and can you assure me that the Army is doing 
everything possible to address the concerns of our local 
stakeholders?
    Mr. Murphy. The chief and I have talked about this. We will 
work with the local commander, the general, and we will make 
sure that we are obviously always following the law, and we 
will work with you and your team to make sure that we are being 
as responsive as possible.
    General Milley. I will give General Lanza a call.
    Senator Murray. Thank you very much.
    General Milley. And get back to you. The general is a good 
man. I am confident that he and his folks are in accordance 
with the conflict laws and regulations and procedurally moving 
correctly, but I will call him and confirm and get back to you.
    [The information follows:]

    Yes. Through the National Environmental Policy Act (NEPA) process, 
the Army ensures that proposed actions are implemented in compliance 
with all applicable local, State and Federal environmental legal 
requirements, including the Wilderness Act of 1964. During the NEPA 
process, the Army actively seeks input from other agencies, non-
governmental organizations, and the general public. When preparing a 
NEPA Environmental Impact Statement, the Army addresses concerns raised 
by local communities during the public comment period. This can include 
public meetings, public notices in local newspapers, and postings on 
the Joint Base Lewis-McChord website.

    Senator Murray. Okay. Mr. Chairman, I will submit my other 
questions for the record, and I really appreciate my colleagues 
allowing me to jump in real quick. Thank you.
    Senator Cochran. Thank you, Senator. The distinguished 
Senator from Missouri, Senator Blunt.

                     MILITARY FAMILY STABILITY ACT

    Senator Blunt. Thank you, Mr. Chairman. Secretary Murphy, 
and I think I will ask a similar question to General Milley, 
Senator Gillebrand, I and others recently introduced 
legislation, the Military Family Stability Act.
    The principal motivating factor of which would be for 
spouses to have a job opportunity, have their own career, or 
children staying longer or leaving earlier for education, that 
we would have new commitments to be sure that worked.
    We are working with the Department on that, particularly 
with the Army, to talk about what the exact amount of time 
might be to look at the impact this has on whether people stay 
in the military or not, and just your thoughts on that.
    In our initial discussion of that bill, we had really just 
persuasive cases of one spouse whose husband was going to be 
transferred from Hawaii to Ft. Leonard Wood. She got in a Ph.D. 
program at St. Louis University. She got a teaching contract at 
another school nearby, Missouri Science and Technology. She 
needed to be there in August. They were going to leave in June. 
That was all fine until they did not leave in June, and then 
they did not leave in July, and then they did not leave in 
August, and the entire cost of the family move was needlessly, 
I thought, on them.
    Mr. Secretary, your thoughts on those issues generally and 
what we can do to make that system work better for families.
    Mr. Murphy. Senator, I will tell you I applaud the efforts. 
The Military Family Stability Act is the type of legislation 
that is terrific. It is not just the right thing to do, but it 
also allows us to let our soldiers know the programs that are 
out there already.
    Right now, it is on a case by case basis, but when you look 
at an Army soldier, they have two families. It is the soldiers 
that they serve with on their left and right, and their 
families at home that they are also responsible for.
    With the op tempo that we have had since 9/11, almost 15 
years now, it is the families that have borne the cost and have 
been really stressed, and we are trying to do everything 
possible to make sure they know that we are committed as an 
Army team and as an Army family.
    I looked at that legislation, and I think it is a terrific 
example of partnering with the military and with the 
legislative branch to let them know that these programs are in 
place and to make sure we are articulating that and mandating 
that.
    I know your legislation provides basically a 6 month 
window. Those are the type of things that allow us to focus on 
readiness, but take care of soldiers at the same time. I look 
forward to working with you.

                     MILITARY FAMILY STABILITY ACT

    Senator Blunt. Thank you, Secretary. We are eager to work 
with you on that, too. The legislation does say 6 months. If 
there is a persuasive argument that 4 months is a better 
number, we can certainly talk about that.
    When General Odierno was the Chief of Staff of the Army, he 
made the very insightful observation that the strength of the 
military is military's families, and with everything families 
have invested, there is enough you miss already without 
needlessly creating stress.
    I do not know, General Milley, in your personal experience 
or what you have seen in your command and other 
responsibilities, what is your sense of how important it is 
that we look at this differently than we have been?
    General Milley. I think it is a key readiness issue. It is 
not just a compassionate issue. It is a key readiness issue 
because about 60 percent plus of our Army is married and on 
average have two children, which is different than World War 
II. In World War II, 10 percent were married with children. 
Sixty percent of our force are married with children.
    We have to adjust the systems to manage the current talent 
pool that we have in this century. If there is one thing that 
soldiers care about it is their family. So, if we want our 
soldier to be ready to focus on his combat tasks and training 
or when deployed to focus on the enemy, then we owe that 
soldier to make sure that their family is being taken care of 
with good schools, good healthcare, the spouse has a job.
    The Stability Act and the Family Act goes towards doing 
some of that. I think it is very important, and I am in full 
support of anything that helps Army families.
    Senator Blunt. Good. We look forward to continuing. I know 
all the co-sponsors and the members do, to continue to work 
with you so that we come up with something that really works 
here.
    As more spouses pursue their own professional career, as 
students often to either start when school starts or stay until 
school is over. Little things like this I am sure make a huge 
difference in whether people maintain their commitment to the 
military.
    It only takes one or two bad situations for many people who 
are willing to serve to say you know, I just cannot continue to 
put my family through this for what appears to most people 
looking at the current situation to be often no good reason at 
all.
    I thank both of you for your comments on that, and thank 
you, Chairman.
    Senator Cochran. Thank you, Senator, appreciate it. The 
distinguished Senator from Montana, Mr. Tester.

                  MENTAL HEALTH AND DISCHARGE PROCESS

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
the senior Senator from Hawaii for his flexibility, and I want 
to thank both of you for being here, and your service. A 
special thank you to you, General Milley, for your support of 
the Guard and Reserve that you touched on a little earlier. We 
very much appreciate that.
    Most of my questions are going to be dealing with PTSD, 
TBI, and suicide. The rest of my questions will be written in 
writing for you.
    I certainly appreciate the ongoing efforts that the Army 
has done on the discharge process, and how we are handling PTSD 
and TBI. I want to dig into that a little more because there is 
nothing dishonorable about the men and women who battle with 
mental health issues, and they deserve to be treated with 
dignity and compassion, and the best care that we can provide.
    You guys know this, to be forcibly separated from the 
military with a less than honorable discharge for these folks 
is not doing a service to the country or the Army, and 
especially not to those folks and their families.
    This goes for either one of you or both of you. Could you 
provide us with an update on the Army's investigation into the 
discharge process?
    Mr. Murphy. Sure, Senator, let me start. There are two 
independent reviews going on right now on that discharge 
process. I have read the reports about the 22,000 soldiers. We 
are looking at it, and it is due back to us shortly. I know my 
predecessor, Acting Secretary Eric Fanning, initiated that 
process.
    Once that comes back, we will communicate with the Senate 
to make sure you know that we are tracking that.
    I will say from my initial preliminary investigation on 
this and look at this, it is less than 1 percent that we are 
talking about that have that discharge, whether it is an OTR--
I'm sorry--OTH or dishonorable discharge, that is related to 
PTSD or TBI.
    As you know, Senator, as you mentioned, these are the 
signature injuries from Iraq and Afghanistan, in my generation. 
We need to get on top of it and create health teams and other 
things. There is no doubt that we have to address that.
    If I could say one last thing, Senator.
    Senator Tester. Yes.
    Mr. Murphy. We also do not want to send the message though 
that it is a get out of jail free card if you have PTSD or TBI, 
and not that you are suggesting that. We need to make sure that 
we have a ready force and we are given the resources needed to 
make them whole again.
    Senator Tester. I think we both can agree what we want to 
do is what is right. I think if these folks who acquired PTSD 
or TBI in service, we need to take responsibility for that. I 
do not hear you saying anything different than that.
    Can you tell me when the report is due back? You said 
shortly.
    Mr. Murphy. I believe we are talking weeks, not months, 
Senator. I think within 4 weeks.
    Senator Tester. And what are you going to do with that 
report when you get it?
    Mr. Murphy. First, I will read it and then I will execute, 
and then I will----
    Senator Tester. Is it going to be open for us----
    Mr. Murphy. My understanding is it is a public document.
    Senator Tester. Do you know what issues they have 
identified at this point?
    Mr. Murphy. I think there are some issues, Senator, again 
from my preliminary read on this, how it was in the past is 
different than how it is now, the last few years.
    Senator Tester. All right. There was a provision that I 
included in the 2015 NDAA that would say all folks that were 
discharged with a mental health condition be reviewed by at 
least one mental health professional. Could you give me an 
update on the implementation of that?
    Mr. Murphy. I will give you that. It is my understanding 
when you look at--some of the boards had to hire some health 
care professionals to review the medical documents.
    Senator Tester. So, what you are saying is that has not 
been implemented yet?
    Mr. Murphy. I believe--that is not what I am saying, 
Senator. What I am saying is from my understanding, and I can 
get back to you with more accuracy, but from my understanding, 
they have hired mental health professionals to review those 
past cases as a shortfall, but they have hired those persons to 
execute that piece of legislation that was incorporated last 
fiscal year.
    Senator Tester. So, what you are saying is the current 
discharges are meeting that now?
    Mr. Murphy. And they have hired more professionals to do 
the past ones.

                      FEMALE VETERANS SUICIDE RATE

    Senator Tester. Okay. Let me go to my last one. It deals 
with female veterans who commit suicide at nearly six times the 
rates of civilian women, five times more likely than male 
veterans to commit suicide.
    What is the Army doing to address that, what I would say is 
a sudden rise of suicides amongst military in the military.
    Mr. Murphy. Senator, I will tell you I write a condolence 
letter every week, and on the average of about 10 a week. 
Several are for suicides. Not that it is getting worse on 
Active Duty, better in the Reserve, worse on Active Duty, for 
years, it was getting better. 2015 was not a good year. It is 
almost one a day. That is the total soldiers and also their 
family members and civilians as well. Almost one a day.
    We need to do a better job, and I think through these 
health teams that we have at the brigade level, which is 
getting to the stigma it is okay to go see a mental healthcare 
professional, getting at that stigma, I think, is the most 
important thing.
    That is coupled, Senator, with the ``not in my squad'' 
issue with our sergeant majors of the Army, when we talk about 
sexual assaults.
    We have been very aggressive and have had great successes 
where incidents are down and reports are up.
    Senator Tester. So, what I am hearing you saying is----
    Senator Cochran. The Senator's time has expired.
    Senator Tester. [continuing]. You are on it and you are 
going to deal with it, and if we can be of help, please let us 
know, to help you do your job. Thank you.
    Mr. Murphy. Yes, sir.
    Senator Tester. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator. The distinguished 
Senator from Alaska, Ms. Murkowski.

                       425TH BRIGADE COMBAT TEAM

    Senator Murkowski. Thank you, Mr. Chairman. Gentlemen, 
thank you for your appearance this morning, and thank you for 
your leadership.
    I have one priority this morning, and that is with regards 
to the proposed reductions to the 425th Brigade Combat Team at 
JBER. General Milley, I thank you for visiting Alaska last week 
or about 10 days or so ago to observe the 4th Infantry Brigade 
Combat Team there at JBER.
    In your military judgment, do you think that the 4th 
Infantry Brigade Combat Team should be retained as a strategic 
deterrent to Russia, and to support our military objectives in 
the Pacific?
    General Milley. I do, Senator. If I could take a minute 
to----
    Senator Murkowski. If you would, please.
    General Milley. [continuing]. Explain. When I first was 
nominated and then confirmed for chief, Senator Sullivan asked 
me to take a look at it. I have done that. I have gone to 
school on the situation, I think, reasonably well on the 
Pacific relative to Russia, in the Arctic, and in the Northern 
Pacific.
    I have concluded after about 4, 5, 6 months here of pretty 
intensive study that Russia is not only acting aggressively in 
Europe, they are also asserting themselves in the Pacific and 
specifically in the Arctic. They have activated additional 
brigades. They put up some command and control capabilities, 
and they have done some other things.
    I think it would be contrary to U.S. strategic national 
security interests to go ahead and pull out 425 at this time. 
My thought is we should extend them at least a year to see how 
the strategic situation develops, and then move from there. 
Right now, that brigade is the only airborne vertical 
insertion, forced entry capability, available to Admiral 
Harris.
    We have a variety of situations that I have already 
described with Korea and the Chinese operations in the South 
China Sea, et cetera. We just do not know. We cannot predict 
the future.
    But we want that capability, and for the President of the 
United States, the combatant commanders, and Secretary of 
Defense to have that tool available if required. They can 
rapidly deploy. They are less than 8 hours from any hot spot, 
not only in the Pacific but other parts of the world. There is 
a great joint strategic deployment platform up there with Air 
Force capabilities. They can move by air. They can move by sea.
    We have a national capability there that I think is 
worthwhile keeping. I confirmed that through personal site 
visits, talked to the commanders, talked to the soldiers. I 
think we need to at least keep them for an additional year, 
defer our decision for 1 year. That would be my best military 
advice at this time.
    Senator Murkowski. That is very welcomed news and much 
appreciated, and just a true recognition of what we have with 
this only airborne brigade combat team there for the Pacific, 
Arctic trained, mountain trained. You know all the 
superlatives. Thank you for recognizing and acknowledging that.
    I would ask you, Secretary Murphy, if you concur with the 
judgments that have been expressed by General Milley.
    Mr. Murphy. Senator, I plan, as I mentioned to you earlier, 
on going up to Alaska myself. I have been partnering with Chief 
Milley on this. I come from an airborne unit. I know it is 
strategically an incredible asset.
    My understanding is from the chief's report that the 
facilities up there, the training facilities, are second to 
none. We have invested a lot of money up there.
    We are looking at that. It is my understanding I have the 
authority to act on that, and I look forward to working with 
you as we review this shortly and giving you an answer.
    Senator Murkowski. Good. Again, to both of you, I 
appreciate what you have provided here today, and I look 
forward to working with you to ensure that the capabilities 
that we have with the 425th are continued to allow for that 
robust security that we need specifically at this time, and 
with the components that they have, I think we recognize it is 
exceptional and needs to be protected. I thank you for that, 
and I look forward to working with you in that regard.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator. The distinguished 
Senator from Hawaii, Mr. Schatz.

                         ARMY'S ROLE IN PACIFIC

    Senator Schatz. Thank you, Mr. Chairman. General Milley, as 
you know, the Asia Pacific region has been in the news over the 
last several months with the North Korean nuclear tests and 
with the Chinese aggression in the Spratly's.
    I think a casual observer might get the mistaken impression 
that this is a problem that is primarily a Navy and Marine 
Corps' issue, and I would like you to articulate the Army's 
role, not just with the FAD, but more generally the Army's role 
in deterring aggression in the region, and also reassuring our 
allies.
    General Milley. Thanks, Senator. I think the Army plays a 
very, very important role in the Pacific. We have 75,000, 
almost 80,000, actually, Army soldiers committed to Admiral 
Harris and the Pacific Command.
    About a third of the operational force, of the deployable 
operational Army, is actually committed in the Pacific. It does 
a lot of things that I know are worthwhile for deterring any 
potential outbreak of hostilities and then shaping the 
environment, reassuring our allies. The Pacific Pathways is a 
good example where Army forces routinely three times a year are 
exercising their strategic deployment capabilities to do that.
    Most of the countries in Asia, their militaries, I think 
all but three or four of them, are actually led by Army 
officers. There is an important engagement function to be done 
there as well.
    If you look at what the likely contingencies are in Asia 
without going into any kind of classification, it is clear that 
the Navy and the Air Force are fundamental, but the truth of 
the matter is the Navy, the Air Force, the Army, the Marines, 
Special Forces, no one service wins a war for the United States 
of America. It takes a nation to win it, and as far as the 
military goes, it is a synergistic effect of all the services 
working together in time and space to achieve the effects you 
want.
    In the Pacific, the Army plays an absolutely vital role. I 
think you would hear the same out of Admiral Harris for sure, 
and on the Korean Peninsula with General Scaparrotti. I am 
absolutely committed to the Pacific, and the Army has a very 
important role to play.

                            PACIFIC PATHWAYS

    Senator Schatz. Well, I want to appreciate General Brooks 
as well for his leadership, and ``More faces and more places 
with less bases'' I know is his saying.
    If you would not mind spending a little bit of time talking 
about how Pacific Pathways actually works and how it fits into 
how the Army has historically worked in the region, and also 
how it is consistent with the Army's mission, consistent with 
its mandate, but also a bit of an innovation.
    General Milley. Pacific Pathways is a series of exercises, 
it is not a singular exercise, it is an umbrella term, a series 
of exercises where they are directed at reassuring allies and 
exercising strategic deployment and then tactical employment 
once the forces arrive.
    It is done three times a year. It is underneath the command 
and control of the first headquarters out of JBLM (Joint Base 
Lewis-McChord), and the 25th Division headquarters out of 
Hawaii.
    They go to what we call ``phase zero objectives'' of the 
combatant commander. Admiral Harris has a series of objectives 
out there to reassure allies, deter enemies, and to engage on a 
routine day to day basis. It is a series of exercises that 
achieve Admiral Harris' objectives.
    Senator Schatz. Thank you. Turning to force structure, 
Secretary Murphy, I understand we have a couple of major 
variables. Obviously, what we do in terms of sequester in the 
out years and whatever may be happening on the globe, but given 
those variables, what can you say about the Army's inclination 
in terms of force structure in the Asian Pacific region, and 
Hawaii, in particular?
    Mr. Murphy. Well, I think the key, Senator, is really the 
partner capability. Again, we are focused on it, as you know, 
but I would say to you that it is not just American boots on 
the ground and exercises, it is our partner capability.
    What that does, Senator, is it creates a synergy with our 
allies, and when we work together as a team and we have those 
relationships, it shows a show of strength.
    Comparable to what is going on right now in Europe with the 
European reassurance initiative, when you look at the Pacific 
Pathways and those exercises, at a cost from my read of about 
$15 million, it is definitely worth it when you look at not 
just the readiness that it builds with our own soldiers, but 
with our allies in that region.
    Senator Schatz. Thank you.
    Senator Cochran. Thank you, Senator. The Senator from 
Kansas, distinguished Senator from Kansas, Mr. Moran.
    Senator Moran. Mr. Chairman, thank you very much. Excuse me 
for intruding in case you were going to do more words like 
``distinguished.'' I appreciate that.
    Mr. Secretary, nice to see you again, thank you for the 
opportunity to have a conversation with you. General Milley, 
thank you very much for being here and for your service to our 
Nation. Thank you for the conversation that we had in our 
office earlier this week. I found it extremely valuable, and I 
appreciate the amount of time that you were willing to spend, 
and the expertise you were willing to share.

                           ARMY END STRENGTH

    Let me start with something that the Secretary said in his 
comments. Readiness wins wars. I am particularly interested in 
this issue of readiness and particularly how readiness is 
related to troop strength.
    Legislatively, we are working to increase the authorized 
levels for both, the Army, the Marines, the Active Duty, as 
well as the Guard.
    General, let me visit with you about this topic and ask you 
if returning the Army to its end strength of 480,000 soldiers 
on Active Duty, 350,000 in the National Guard, and 205,000 in 
the Reserve, does that support your number one priority of 
readiness?
    General Milley. The short answer would be sure. I think 
having increased numbers would help out in readiness, if and 
only if though we had the money to support that. That is really 
fundamental.
    The reason that this budget has us on a glide path towards 
450,000 in the Regular Army and 335,000 in the Guard and 
195,000 in the Army Reserve is because that is the size force 
balanced with modernization and readiness that we can afford, 
given that top line. Given the budget agreement, et cetera, if 
more money were available and we could increase the size of 
force, I think that would be great.
    I do want to caution though that numbers are not the only 
thing. Quality matters. When I talk readiness, I am talking 
about units that are full up on strength, are highly trained in 
combined arms operations. They are capable of sustaining and 
executing counterinsurgency operations.
    The size of a given force is important. Quantity has a 
quality all its own. That is important, but that is one of many 
factors to determine capability in the outcomes in ground 
combat.
    I certainly would welcome additional end strength but only 
if it came with the money attached to it.
    Senator Moran. Let me ask the question about training and 
equipment, which you indicate are so important. Numbers alone 
are insufficient. How those individual soldiers are trained and 
equipped is important, but with the number of deployments, the 
ability to spend time in training and equipping forces is in 
part dependent upon the troop strength.
    General Milley. Absolutely. The op tempo today, 190,000, 
140 countries, the combatant command demand out there, time is 
a critical resource when building readiness. You have to have 
time to train, you have to have time to hit the sled multiple 
occasions to build up your skill sets to do the type of tasks 
we are required to do. Time is a critical resource.
    If you have a larger end strength, then you can have a 
larger amount of force dedicated in terms of time towards the 
training tasks that are required. For sure, it does factor in 
on that.

                          IRWIN ARMY HOSPITAL

    Senator Moran. Thank you very much. One of the aspects of 
readiness that you and your staff have been helpful to me on, 
helpful actually to soldiers in Kansas, is the completion of 
Irwin Army Hospital at Fort Riley. True to your motto of 
readiness, because in helping us get the hospital out of the 
morass of lawsuits and construction issues, you did so 
recognizing that in order to have a fully trained, equipped, 
and healthy force, that health care administered through that 
hospital is important.
    What we now know about that issue, the hospital at Fort 
Riley, is that the construction issues are to be completed by 
March, next month, but we are still being told that the 
hospital will not be move-in ready until July.
    My request of you is would you continue to work with us to 
see if we can get the dates shortened from a matter of months 
to a matter of weeks?
    General Milley. I absolutely will. Let me make a comment. I 
will check the actual time lines, et cetera. My experience--I 
was a senior commander at Fort Hood, a base of 50,000, and a 
senior commander at Fort Drum with the 10th Mountain Division, 
so I have some experience at some hospitals.
    At Fort Hood, we happened to be building a hospital as well 
at the time. Going through the engineering, the time lines, the 
construction, et cetera of that particular hospital, and I 
suspect similar things are happening at Riley, but I will check 
to be sure.
    Once the construction is done, that is not the automatic 
move-in date because it takes time to move in all the 
equipment, the medical equipment, conduct the inspections, 
certify everything, and make sure all the things are running in 
accordance with the medical standards and the engineering 
standards that are required to effectively run a hospital safe 
for patients.
    I will get back to you on the specific time line. I will 
work to accelerate it if we can. I suspect those post-
construction activities are what is contributing to it.
    [The information follows:]

    Normally, 180 days are required from the beneficial occupancy date 
to the fully operational date (FOD) for initial outfitting and 
transition (IO&T). We have worked with all stakeholders to reduce this 
timeline to 120 days. This is the minimum time necessary for IO&T and 
cannot be compressed further. IO&T consists of activities to prepare 
the new building for occupancy, and to prepare the people who will look 
in the new building.
    Initial outfitting activities include medical and non-medical 
equipment installation, relocation, testing and certification to make 
sure equipment is safe for patient care; data migration; property 
accountability; provisioning of medical, laboratory, and administrative 
supplies; computer imaging; phone line transfer and installation; and 
many other activities to prepare the building for operations.
    Activities to get the building ready for the people are 
synchronized with transition activities. Getting people ready for the 
building includes individual and departmental training. The most 
critical events are two sequential ``day in the life'' exercises, or 
full-scale simulation of hospital operations designed to test all 
medical and facility systems, and operational processes. The first 110 
days are dedicated to transition activities to prepare staff for 
delivery healthcare in the new facility. Department moves and patient 
care begins in the new facility ten days prior to FOD. Patient 
relocation is a one day activity on FOD.
    The current 120-day timeline enables continuity of safe, quality 
healthcare for the Fort Riley community and minimizes operational risk.

    Senator Moran. My understanding is that the equipment, the 
furniture, et cetera, has already been moved in. Mr. Secretary, 
I just raise this issue for your awareness as well. My time has 
expired. If I could just ask a very quick and passing question.

                             GUANTANAMO BAY

    Yesterday, the administration announced a plan in regard to 
the closing of Guantanamo Bay and the detention facility that 
is there. General, let me ask, my understanding is that the 
military, the Army, has provided perhaps information necessary 
for that plan, number of soldiers, costs, et cetera. Was there 
analysis completed by the Army in regard to that plan?
    I ask in particular because potentially the housing of 
those detainees may be at an Army installation, perhaps in 
Kansas or in Colorado, and I wondered the extent, did the 
Department of Defense or did the Army specifically provide 
analysis in the preparation of that report?
    General Milley. What we provided were facts in terms of 
what is available at Army installations, how much space there 
is, what the security arrangements are, costs, the amount of 
soldiers that are currently committed to GTMO, how much that 
cost, the Army budget, so facts.
    As far as the analysis of the plan, Senator, I have not 
seen a plan, other than what I saw announced the other day. I 
personally have not. I will check with my staff. I do not think 
they have analyzed a plan, per se, something I would consider a 
plan.
    We did provide input, data input, to the Department of 
Defense and those folks who are working on some sort of plan.
    Senator Moran. Thank you, General. Thank you, Mr. 
Secretary. Thank you, Chairman Cochran.
    Senator Cochran. Senator Udall.
    Senator Udall. Thank you very much, and thank you both for 
your service, and it is good to see my former colleague from 
the House, Secretary Murphy, here today.
    There are tremendous changes occurring in the Army after 
over a decade of war. One of the things I would like to 
concentrate on is how we are preparing for future conflict.
    My biggest concern is that too often today's priorities 
reflect yesterday's way of doing things, and do not adequately 
reflect the world as it may become.

                       WHITE SANDS MISSILE RANGE

    White Sands Missile Range has the best airspace in the 
country, yet this testing range is just empty high mountain 
desert without sophisticated sensors and roads and 
infrastructure, people that support the Nation's testing 
mission.
    How does this budget support maintenance and revitalization 
at the base, and will the Army commit to providing funds and a 
plan of action to revitalize White Sands Missile Range so it 
can continue to support the modernization and the third offset 
strategy?
    General Milley. Senator, White Sands is a critical national 
strategic asset, actually, and a tremendous amount of testing 
goes on out there. Of course, as you know, it is adjacent to 
Fort Bliss. An absolutely huge piece of ground there, not only 
to conduct testing, but also training. White Sands is 
important, and we are committed to continuing to fund that.
    With respect to the third offset, the so-called ``third 
offset,'' the idea there is to invest--it is a DOD initiative 
to invest a significant amount of capabilities in advanced 
technologies and systems that would prevent any peer or near 
peer competitor from matching the capabilities of the United 
States.
    White Sands will play a critical role, there is no doubt in 
my mind, in the development of those systems.
    Senator Udall. Thank you. It is very good to hear that. 
Thank you also, General Milley, for mentioning Fort Bliss. 
Although Fort Bliss is not in New Mexico, it is very close, and 
many of the people that work at Fort Bliss live in New Mexico. 
Fort Bliss and its activities have a major impact on southern 
New Mexico. I can just tell you people in southern New Mexico 
are very welcoming of that activity from Fort Bliss.
    White Sands Missile Range, the Army's high energy laser 
systems test facility, otherwise known as HELSTF, remains under 
funded and lacks the necessary personnel to conduct its 
mission. With DOD's own third offset strategy promising 
significant investments in high energy lasers, where does 
HELSTF fit into the strategy and how does its fiscal year 2017 
funding properly reflect this role?
    General Milley. I am going to have to get back to you 
specifically on that program's funding. I do not have the 
specifics on that program.
    [The information follows:]

    In 2011, as a response to the Test Resource Management Center and 
the High Energy Laser Joint Technology Office Study, the Army 
transferred the HELSTF from the Army Space and Missile Defense Command/
Armed Forces Strategic Command to the Army Test and Evaluation Command 
to gain efficiencies and allowed divestiture of capabilities no longer 
needed. This transfer enabled the Army to maximize the use of the 
facility by reducing duplication of effort, instrumentation, and 
facilities while providing high quality support/products for our 
customers. The 2009 study did recommend $6.4 million as the annual 
required funding versus the $2.8 million that the Army has funded since 
2010. However, the efficiencies gained by the command realignment 
described above as well as additional funding from the DOD Central Test 
and Evaluation Investment Program (CTEIP) and Science & Technology 
(S&T) of approximately $12 million over the last 10 years have 
continued to keep the instrumentation level appropriate. HELSTF remains 
the DOD designated site for High Energy Laser testing and is a key 
asset for all services in the development of these weapons systems. As 
new requirements arise, they are addressed by both Army and DOD CTIEP 
resourcing solutions.

                     FUTURE BATTLEFIELD ENVIRONMENT

    Senator Udall. Okay. That would be great. We really 
appreciate that. The Air Force is beginning to take notice 
about the need to combine kinetic and cyber training. I 
included language last year to promote this effort, which would 
enable our troops to train for an environment under both 
kinetic and cyber-attack.
    How is the Army working to prepare for this type of future 
battlefield environment, and are there adequate funds in this 
year's budget to begin this type of training?
    General Milley. We have put things in the budget for this. 
The future environment, it depends on what you go against. If 
it is ISIS, Taliban, that is one set of conditions. If we are 
going against these hybrid higher end threats, we are going to 
face, no doubt, a very, very significant cyber threat, and it 
will be a very, very lethal environment with the proliferation 
of precision guided munitions, unmanned aerial vehicles, 
intense densities of artillery, so on and so forth.
    What we have been fighting for 15 years, IEDs, small arms, 
machine guns, terrorists, if we were to get engaged with one of 
these hybrid near peer competitors, that battlefield 
calculation will be significantly and fundamentally different.
    We are preparing for that, and that is what we are talking 
about, this whole budget is all about that. This whole budget 
for the Army is all about increasing readiness to be able to 
fight in that environment. That is the one we are concerned 
about. We have to be able to do that in a combined arms way. 
This will not just be light infantry and doing 
counterinsurgency patrols. This will require high end combined 
arms and require joint force. We have to be fully integrated 
with air from the Naval capabilities, stand-off weapon systems.
    Importantly, we also have to have and we have to train to 
it, increasingly disperse our force and re-aggregate our force 
rapidly. Any kind of concentration of force in that type of 
environment is not going to be long for this world.
    We have to think not only about the weapon systems and the 
sizes of force, we have to think of the ways in which we are 
going to operate in that environment. That will be a 
fundamentally different operating environment than we have seen 
in the last 15 years.
    Senator Cochran. The time of the Senator has expired.
    Senator Udall. Thank you very much, General, for that 
response. I will submit additional questions for the record. 
Thank you.
    Senator Cochran. The distinguished Senator from Missouri.
    Senator Blunt. Mr. Chairman, I have one other question, if 
you think we have time.
    Senator Cochran. Go ahead.

                    DEPARTMENT OF THE ARMY CIVILIANS

    Senator Blunt. Whenever the input hearings, the assessments 
were held last year around the country at various bases, 
obviously one of the things discussed there was civilian 
employees as well. I want to take a slightly different approach 
to this than Senator Durbin did, although I share his concern 
that we just do not replace civilian employees with contract 
employees.
    My question to both of you is when are we going to get a 
sense of the civilian employee component, and I would also like 
to make the point that at a fort like Fort Leonard Wood that is 
largely a school house, it has lots of functions, but it has a 
lot of the various schools there, and because of that, probably 
a little more of a civilian component than you would have in an 
average installation. A percentage cut would not be appropriate 
there, I do not think, and I hope you do not either.
    Anything you would like to help us with to understand where 
we are on civilian? We know the end strength military number 
you are heading for. I am not sure I have the right sense yet 
of how the civilian component relates to that.
    It might be to some extent the same question you answered 
already to Senator Durbin, and he and I, I think, would share 
the same concern, that we just do not transition people who 
have been employees of the Federal Government into employees of 
a contractor that does not recognize the service those 
individuals have provided as Federal employees.
    Mr. Murphy. Senator, again, when I talked about a total 
force in the Army, that includes our civilian counterparts. As 
I mentioned, there is about 246,000 of them. When you look at a 
place like Fort Leonard Wood in Missouri, that is part of our 
generating force.
    Over these almost 15 years of war, continuous war, we have 
put our green suiters, our soldiers out there fighting the 
fight, and we have had to increase the civilian capacity to 
make sure we can build a proper generating force.
    Specifically, Senator, and to your point, we are not just 
throwing them away. We value their service. They are definitely 
part of the team. I would say 37,000 have left, but it is 
through attrition. They have gone on to do other things or they 
have retired.
    We have done all these things, and we are hoping to 
continue to do them, only through attrition, but there is no 
doubt that for the Army itself, it is critically important to 
have the best and the brightest within our ranks, and that 
includes soldiers and civilians. We have to have the proper 
mix, and I think we are almost all the way there, and we will 
continue to make sure we monitor that.
    Senator Blunt. You believe you are close to the civilian 
number that would be the target number?
    Mr. Murphy. I think we are hitting our targets where we are 
going to be able to accomplish it through only attrition. Yes, 
Senator.
    Senator Blunt. General Milley.
    General Milley. The numbers I have seen concur with that, 
that we are going to be able to meet our targets through 
attribution and voluntary retirement.
    Senator Blunt. I would just make my point again, that there 
are some installations where the civilian component may be a 
higher component because of school obligations and other 
obligations and training. I would be interested to see how the 
retiree's, the people that leave Federal service, how that 
works to fit the target number, although it may not be an exact 
match with the employee number you still need to make a 
specific installation work.
    Mr. Murphy. Senator, if I could just make one last point 
because I think it is analogous to what you are saying, do not 
underestimate the fact that our Army and our generating 
forces--we are a joint force, and what we do to train the other 
branches is second to none.
    When we talk about the soldier side, as the chief 
mentioned, if you look at an U.S. Army soldier in the green 
suit, in a val dress uniform, 53 percent of them are going to 
be in the National Guard or Reserves. The majority of our 
soldiers are in our Reserves component, but we are a total 
force.
    Along with that are our critically important civilians. We 
could not do this unless we did it together. This generating 
force that we are doing at that base and elsewhere trains 
Marines, sailors, and airmen to be the best of the best as 
well.
    Senator Blunt. Right. Like the military police school at 
Fort Leonard Wood, or the chem-bio school at Fort Leonard Wood, 
or the other schools there, beyond the confines of the Army, 
and I am sure the other services appreciate and are grateful 
for that.
    Thank you, Chairman.
    Senator Cochran. Thank you, Senator. The distinguished 
Senator from Illinois, Mr. Durbin.

                             ISLAMIC STATE

    Senator Durbin. I want to thank Senator Blunt, and I agree 
with his comments. The one element to remember is we have been 
told repeatedly these contractor employees cost three times as 
much as civilians. If you are eliminating civilians by 
attrition and replacing them with contractor employees, you are 
not saving money, if that is the goal. I hope we can keep that 
in mind.
    Mr. Murphy. That is not the goal, and that is not what we 
have been doing. I will make sure I am on top of it, and I will 
get back with you, but that is not the intent and that is not 
what we are doing.
    Senator Durbin. General Milley, let me ask you one last 
question, a little different. Based on your personal experience 
and your current responsibility, what would you say is the most 
encouraging news you can give us on our fight against ISIS, and 
what is the most sobering thing that you see as you consider 
this enemy?
    General Milley. Senator, I had an opportunity right after 
confirmation to go visit CENTCOM AOR and spend some time in 
Iraq, talked to U.S. commanders but also Iraqi commanders. I 
went back in December for a second visit, and I will be heading 
back there shortly for yet another one.
    In my capacity as a member of the Joint Chiefs of Staff, I 
want to get an operational update. I have served many times 
over there, but I want to get that update.
    When I went over in the September timeframe, I came out of 
there not particularly optimistic. I thought at that time the 
enemy had the strategic momentum and things were not going so 
well. I think that played out many ways in the news. When I 
went back in December, I came away with a different picture. I 
saw a different at least tactical and operational situation and 
a somewhat different strategic situation.
    So, what changed? We put in place in the fall some new 
aspects, modified aspects, we modified the strategy. We 
assessed the situation. We collectively JCS'ed the national 
security styles from the administration, and we put in place 
some different aspects of the strategy, some of which are 
classified, some of which are not.
    The long and the short of it is ISIS has come under 
significantly increased pressure at multiple locations 
simultaneously. You have seen that play out in the news. You 
are seeing things like increased numbers of ISIS killed in 
action.
    The ISIS leadership is under intense pressure. Their 
finances are under intense pressure. They have lost a 
significant amount, relatively significant amount, at least 
tactically, of battle space or territory. They lost Ramadi, 
which is important, and there has been a lot of interdiction 
along their lines of communication. They are under a lot of 
pressure.
    However, that is all in the good. We are not there yet, and 
no one should think we are. This is a long term effort against 
this enemy. The President has charged us to destroy that 
organization, and we intend to do so.
    The most alarming thing, I think, beyond just their 
brutality and viciousness, which is unbelievable in my view, 
they are now displacing--it appears to me anyway that they are 
displacing capabilities to other areas, out stations, the most 
disturbing of which now appears to be Libya.
    There seems to be, at least in my view, without going into 
classifications, an increase in ISIS capabilities in Libya. 
That should be cause for concern. I know it is cause for 
concern, which really is emblematic of one of the phenomena's 
that we are seeing here as a transregional organization. They 
are not solely in Syria and Iraq, although that is their center 
of gravity.
    They have spread out, and they are transregional. This 
involves for the United States in terms of combatant commanders 
not just Central Command but it involves AFRICOM and UCOM as 
well, and really in many ways it involves PAYCOM.
    It is a transregional approach. We have to deploy all the 
elements of national power to this organization to achieve the 
President's end stage of destroying them, and in order to help 
out our partner nations and stabilize the region.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you, Senator Durbin. There are no 
further questions, and we appreciate very much and are grateful 
for your assistance to the committee and your appearance before 
us today.
    The Senators are permitted to submit written questions. Any 
questions that are submitted, we would appreciate you respond 
to them in a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Question Submitted by Senator Thad Cochran
          deactivation of national guard brigade combat teams
    Question. Secretary Murphy, over the past few years, there has been 
discussion about the total acceptable number of Active and Reserve 
Brigade Combat Teams. For example, under sequestration level funding, 
the 155th Armored Brigade Combat Team--a combat hardened unit in 
Mississippi that ranks as one of the most capable and technologically 
modernized brigades within the National Guard--could have been 
divested. The Bipartisan Budget Agreement of 2015 seems to have delayed 
some of this discussion. Given the numerous crises occurring throughout 
the world, do you envision or would you recommend further reductions in 
Brigade Combat Teams at this time?
    Answer. No, we do not plan to cut brigade combat teams (BCTs) 
beyond the two inactivations announced in July, 2015 provided that the 
budget limitations of the Budget Control Act (BCA) does not go into 
effect. Inactivating BCTs is always our last option. It is our intent 
to preserve BCT capability and capacity. We will continue to look at 
every other option before cutting combat power. If the BCA funding caps 
return, however, the Army may have to consider reducing more BCTs.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                    european reassurance initiative
    Question. General Milley, The U.S. has increasingly demonstrated 
its commitment to our European allies in view of Russia's continued 
provocations and invasion of Ukraine has prompted the United States to 
demonstrate its commitment to our European allies and, in particular, 
the NATO alliance. What is the Army's contribution to the European 
Reassurance Initiative and why it is important to increase the 
frequency and number of military exercises with our European allies?
    Answer. The Army is using European Reassurance Initiative funding 
to increase Army Prepositioned Stocks (APS). In fiscal year 2017, the 
APS in Europe will expand to include equipment for a Division 
Headquarters, one ABCT, and a Fires Brigade. These prepositioned 
equipment sets will enable rapid force projection and will help deter 
Russian aggression against NATO Allies. The Army will also assure U.S. 
allies in Europe by increasing its presence to a full-time ABCT through 
rotational units and other enablers. Finally, we will increase the 
frequency and number of military exercises with our European allies 
because these exercises reassure our allies and contribute to the 
deterrence of Russia by demonstrating U.S. commitment to NATO. They 
also increase our capability to respond to emerging threats by 
enhancing NATO interoperability. Through these demonstrations of 
capability and forward permanent and rotational posture we will send a 
strong signal of deterrence to those who would question our resolve.
                         patriot modernization
    Question. The Army's budget request includes funding to move ahead 
with Patriot radar upgrades without fully considering the results of 
the required Analysis of Alternatives (AoA), which will have a direct 
impact on cost estimates for the Army's overall Patriot modernization 
strategy. In your response, please provide the Army's rationale for 
this decision, an update on the status of the AoA, and an assessment of 
the capability improvements that a new radar will provide.
    Answer. The fiscal year 2017 President's Budget request supports 
two critical lines of effort for the Phased Array Tracking to Intercept 
of Target (PATRIOT) program: near-term modification of existing 
components and long-term competitive modernization. The ongoing 
Analysis of Alternatives (AoA) outcome is irrelevant to the near-term 
need for these upgrades. The upgrades to the current PATRIOT radar are 
urgent near-term improvements needed to address known threats and 
bridge the gap to the next Lower-Tier Air and Missile Defense Sensor. 
The Army plans to field all of the planned system improvements 
(Electronic Protection, Tactical Ballistic Missile stressing threats, 
Combat Identification) during fiscal year 2018-2021. The next Lower-
Tier Air and Missile Defense Sensor is not expected to start fielding 
until fiscal year 2026 at the earliest and complete fielding in fiscal 
year 2034. The long duration of the fielding schedule is driven by the 
operational demand for PATRIOT Battalions and affordability.
    The AoA supporting the radar acquisition will be completed in April 
2016 and will inform a material decision later this year. The Army will 
deliver the final AoA report to the Congressional Defense Committees in 
accordance with the fiscal year 2016 National Defense Authorization 
Act.
    Since the Department has not yet determined a material solution on 
the PATRIOT radar, it is premature to assess capability improvements. 
Whatever decision is made; however, the Department expects that there 
will be substantial sensor-based performance improvement that mitigates 
current capability gaps and provides threat-paced enhancements that 
counter emerging threat trends.
    It must be noted that PATRIOT product improvement funding was 
marked down $205.8 million between fiscal year 2013 and fiscal year 
2016 that delayed fielding critical software capabilities from fiscal 
year 2018 to fiscal year 2021. Stable funding is critical to enable the 
Army to modify the system to counter evolving threats.
                    improved turbine engine program
    Question. I understand that the Improved Turbine Engine Program 
(ITEP) is Army Aviation's number one modernization priority, and that 
developing and integrating a new engine for the U.S. Army Black Hawk 
and Apache helicopters is a significant endeavor with combat benefits. 
With Low Rate Initial Production (LRIP) not planned until 2023, is the 
Army considering options to speed up the program so that our soldiers 
can obtain the capability benefits sooner? In your response, please 
provide an explanation of the benefits that the ITEP will bring to both 
the current and next generation fleet of helicopters.
    Answer. Based on acquisition lessons learned over the history of 
Army Aviation engine programs, developing a brand-new engine is a 
complex effort, the complexity of which is multiplied when the engine 
is integrated into multiple already complex platforms. The Army is 
conducting integration trade studies now with the aircraft 
manufacturers, Boeing and Sikorsky, to accelerate the effort and reduce 
integration risk. The Army will also learn more about opportunities to 
accelerate the engineering and manufacturing effort when the source 
selection board for the Improved Turbine Engine (ITE) preliminary 
design phase is complete.
    With the continued weight growth of the airframes due to changes in 
the mission equipment packages, not only is the performance decreasing, 
the cost of flying and sustainment is growing due to poor fuel 
efficiency and increased wear and tear on the engines. The ITE will 
provide the power and maneuverability required for the Blackhawk and 
Apache helicopters to carry full mission payloads during high hot 
conditions (6,000 feet altitude and 95 degrees Fahrenheit).
    Compared to the current engine, the Blackhawk operating with an ITE 
will have increased range and payload, allowing for fewer turns and 
fewer aircraft to perform the mission. The Apache also benefits by 
being able to carry more munitions, increased range and or increased 
station time.
    Additionally, the ITE saves operations and sustainment costs by 
being more fuel efficient, reliable, and maintainable. Requirements for 
the next fleet of helicopters has not been established, however the ITE 
can be used in the future fleet or will provide for technology transfer 
derived from this development effort that will provide the same 
benefits.
                           high energy laser
    Question. Secretary Murphy, Army Space and Missile Defense Command 
(SMDC) has demonstrated the ability of a laser to shoot down Unmanned 
Aerial Vehicles (UAVs) and mortars through tests conducted with the 
High Energy Laser Mobile Demonstrator. Directed energy weapons have 
also been able to detonate IEDs at distance and conduct other direct-
fire missions. What plans does the Army have for developing a program 
of record that will advance, and eventually deploy, these capabilities 
to protect troops and assets from any these threats?
    Answer. Army Science and Technology is currently conducting a 
follow-on to the High Energy Laser Mobile Demonstrator effort, called 
the High Energy Laser Tactical Vehicle Demonstration. This effort will 
demonstrate a 100 kilowatt class laser system for defense against 
Rockets, Artillery and Mortars and Unmanned Aerial Systems, with a 
planned transition to the Indirect Fire Protection Capability Program 
of Record in fiscal year 2023.
                           contractor growth
    Question. The Army's budget request cuts more than 700 civilians 
while it increases the full-time equivalent number of contractors by 
more than 2,300. Given the cost of contractors, isn't this the wrong 
direction?
    Answer. Based on the Army data, both civilians and contractors' 
full-time equivalent numbers are declining. Overall the Army 
inventories of contracts for services show a significant reduction of 
20,000 in contractor full-time equivalents from 147,000 in 2010 to 
127,000 in 2014.
                      contractor inventory system
    Question. In light of the GAO report (November 2014), how is the 
Army improving its compliance with the contractor inventory system, and 
using it to reduce dependence on contractors when appropriate?
    Answer. The Army contract services inventory and review process 
meets the statutory requirements of 10 USC 2330a to identify contract 
services performing critical functions and functions closely associated 
with inherently governmental functions that should be considered for 
government performance. Further, the Inventory of Contracts for 
Services data has been integrated into the budget/program data 
warehouse to inform the Program Objective Memorandum for fiscal years 
2018-2022.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
                              north korea
    Question. It is my understanding the Army is considering the 
deployment of a Thermal High Altitude Area Defense (THAAD) system to 
the Korean peninsula. South Korea is responsible for paying half of the 
U.S. Forces Korea budget, would their cost increase with the deployment 
of a THAAD system?
    Answer. If U.S. air and missile defense capabilities are increased 
in South Korea, the Army will work with OSD and the Department of State 
to explore cost sharing through the Special Measures Agreements, which 
cover military construction, logistics support, and labor. These 
agreements are negotiated periodically with the current agreement going 
through calendar year 2018.
                           socom deployments
    Question. A 2015 GAO Report recommended that DOD ``determine 
whether opportunities exist to balance deployments across the joint 
force'' in a study on the overuse of Special Operations Forces. What 
efforts has the Army taken to spread deployments across more 
conventional infantry units?
    Answer. A request for an Army capability from a Combatant Commander 
begins with robust dialogue between the Army Staff and the Combatant 
Commander's staff. This dialogue ensures an optimal sourcing option 
that meets the Combatant Commander's requirement while also adhering to 
the Secretary of Defense's Global Force Management Allocation Process.
    The Army provides trained and ready forces while striving to source 
with the requested capability. Conventional Infantry units are filling 
global requirements. Most of these units are not performing their core 
mission (Decisive Action-Unified Land Operation). Instead they are 
training, advising, and assisting partner and Allied ground forces in 
Europe, the Middle East, Africa, Asia, and the Americas
    Since fiscal year 2014, emergent demand for Army forces has 
increased by 23 percent. The Army currently sources 64 percent of total 
DOD emergent demand. Increased emergent demand has overridden any 
potential relief from the decline in base demands (OEF, and Operation 
United Assistance [OUA--Ebola support in West Africa]).
                       european deployment cycle
    Question. The Army is requesting $2.8 billion this year to deter 
Russian aggression in Europe. With only nine Armored BCT's, who already 
have rotational commitments to Korea and Kuwait, how is the Army 
planning to balance the rotation cycle for these soldiers?
    Answer. A 980,000 total Army force is at the limit of its ability 
to meet the current defense strategy. In fiscal year 2017, the Army 
will have 56 total Brigade Combat Teams (BCTs), 14 of which will be 
Armored Brigade Combat Teams (ABCTs) (9 from the Active Component (AC) 
and 5 from the Army National Guard (ARNG)). Current ABCT operational 
demand includes rotational requirements to Korea, Europe, and the 
Middle East and these requirements, coupled with contingency demand, 
exceeds the Army's supply. The current ABCT Deployment : Dwell ratio, 
the Army's operational tempo measure, is 1:1.8, above the Secretary of 
Defense's 1:1 minimum but below the 1:2 Deployment : Dwell goal for AC 
forces.
    Recognizing the problem, the Army is taking steps to better balance 
supply against both operational and contingency demand. In particular, 
we are transitioning 2d Brigade, 1st Armored Division out of the 
Network Integration Evaluation program to support rotational 
requirements. We are also exploring the National Commission on the 
Future of the Army's (NCFA) recommendation to integrate Army National 
Guard units for select missions. Finally, we are taking a hard look at 
the NCFA's recommendation to increase the AC ABCT inventory to 10 and 
are reviewing courses of action to implement this recommendation. It is 
important to note that we will continue to rely on Overseas Contingency 
Operation/European Reassurance Initiative funding to support our 
rotational requirements, but, given adequate resources, we remain 
confident that we will be able support current requirements with 
trained and ready forces.
    Question. What other units, besides its ABCT's, can the Army rely 
on to counter Russian aggression?
    Answer. Countering Russian aggression requires a total Joint Force 
approach. For the Army, that means incorporating units from the active 
Army, the Army National Guard (ARNG), and the U.S. Army Reserve (USAR). 
One quarter of the total American force for Europe will be from the 
Reserve Component. In upcoming exercises, we will employ about 25,000 
soldiers in Poland from across Europe and North America to gain useful 
skills from across the Alliance, making our military forces more 
integrated and interoperable.
    Aside from the Active forces stationed in Europe, the USAR has 
dedicated nine units to our European deterrence posture and the ARNG 
has dedicated 11 units from nine States. In addition to ABCTs, in-
theater and rotational combat, combat support, and combat service 
support units will continue to provide U.S. presence and deterrence 
through allied partnerships including participation in multi-national, 
multi-service exercises and constant heel-to-toe rotational presence.
    The Army is using European Reassurance Initiative funding to 
increase Army Prepositioned Stocks (APS). In fiscal year 2017, the APS 
in Europe will expand to include equipment for a Division Headquarters, 
one ABCT, and a Fires Brigade. These prepositioned equipment sets will 
enable rapid force projection and will help deter Russian aggression 
against NATO Allies. The Army will also assure U.S. allies in Europe by 
increasing its presence to a full-time ABCT through rotational units 
and other enablers. Finally, we will increase the frequency and number 
of military exercises with our European allies because these exercises 
reassure our allies and contribute to the deterrence of Russia by 
demonstrating U.S. commitment to NATO. They also increase our 
capability to respond to emerging threats by enhancing NATO 
interoperability. Through these demonstrations of capability and 
forward permanent and rotational posture we will send a strong signal 
of deterrence to those who would question our resolve.
                        research and development
    Question. What steps does the Army take to ensure there are not 
duplicative efforts in its research development?
    Answer. The Army, along with the other Services and Defense 
Agencies, participates in the Office of the Secretary of Defense 
(OSD)'s Communities of Interest (COI). The COIs were established in 
2009 as a mechanism to encourage multi-agency coordination and 
collaboration in cross-cutting technology focus areas, and provide the 
forum for coordinating Science and Technology strategies across the 
department. There are 17 COIs, of which the Army leads six. Each COI is 
led by a steering group comprising senior technical leadership from 
across the department, and serves to coordinate research and ensure 
unnecessary duplication is avoided.
    Question. What separates the difference between Army Research Lab 
and Army personnel in Defense Innovation Unit Experimental as the Army 
seeks to connect with the private sector technology industry?
    Answer. The Army Research Lab's scientists and engineers conduct 
basic and applied research in support of Army Science and Technology 
priorities, often collaborating with industry and academia. The Defense 
Innovation Unit Experimental (DIUx) is an Office of the Secretary of 
Defense initiative that seeks to connect innovative technology 
companies with DOD researchers and programs. It is not intended to 
conduct collaborative research, but to be a ``matchmaker'' between 
Silicon Valley and the Department of Defense. By having a presence in 
Silicon Valley, DIUx hopes to foster greater ties between the Defense 
research community and companies that have not traditionally been a 
part of Defense research and development.
    Question. What criteria is the Army using to evaluate the level of 
effectiveness of its presence at the Defense Innovation Unit 
Experimental?
    Answer. The main criteria for effectiveness is whether Army 
researchers are being connected to companies outside of the traditional 
defense industry who may have innovative solutions to Army technology 
challenges.
    Question. What support would the Army request from Congress to 
facilitate substantial acquisition reform?
    Answer. In my recent fiscal year 2017 National Defense 
Authorization Act Section 801 report to Congress, I highlighted several 
opportunities to improve the process through additional reform. First 
the system needs to clearly fix accountability for decisionmaking. This 
can only be done by aligning authority and responsibility. With 
accountability clearly established much of the currently prescribed 
oversight becomes unnecessary. Reducing this oversight would 
significantly improve the processes agility. Finally, the process 
requires the underpinnings of a talented, skilled, and qualified 
leadership and workforce.
    Question. Why did the Army add language to the design objectives of 
the Distributed Common Ground System--Army Increment 2 Request for 
Proposal that requires software to be ``designed in such a manner as to 
minimize or eliminate the usage of proprietary or commercial 
technologies''?
    Answer. The Army cannot respond to this question at this time 
because it involves a matter that is currently in litigation.
    Question. What steps is the Army taking to reduce barriers to open 
commercial competition on Army acquisition requests for proposals?
    Answer. Army is taking the following steps to reduce barriers to 
open commercial competition on Army acquisition requests for proposals: 
developing training, guidance, and additional scrutiny to improve 
commerciality determinations and ensuring non-commercial actions are 
fully supportable by market research; improving and scrutinizing market 
research and market intelligence reports to ensure they support the 
acquisitions; encouraging and improving use of Requests for 
Information, utilizing sources sought notices versus notice of intent 
announcements, and draft solicitations to encourage vendor 
participation; using workshops, training, and other venues to ensure 
the workforce maximizes Department of Defense Better Buying Power 
initiatives; when appropriate, including pre-priced options to procure 
technical data packages necessary for follow-on contract competition; 
conducting advanced acquisition planning to develop improved 
requirements; and using procurement reviews to aid in 
institutionalizing best commercial practices to include, commerciality 
determinations and market research techniques.
                            women in combat
    Question. What does the Army estimate it will cost for full 
integration of women into its Special Forces Qualifications Course?
    Answer. To date, the U.S. Army John F. Kennedy Special Warfare 
Center and School (USAJFKSWCS) has yet to allocate funding specific to 
ongoing gender integration efforts. All current USAJFKSWCS facilities 
will support the initial integration of female Special Forces Soldiers 
into the Special Forces Assessment and Selection course and Special 
Forces
    Qualification Course. However, USAJFKSWCS engineers have begun 
planning for an expanded female latrine and shower facility at Camp 
Mackall, NC (primary training area for Special Forces candidate field 
training). The cost for design and construction of this facility is 
currently estimated at $1.05 million. All individual equipment 
requirements for female Soldiers are currently available and stocked 
through the Army supply system. U.S. Army Special Operations Command 
remains postured to procure special operations peculiar equipment for 
female Special Forces operators as females complete and graduate from 
the requisite training pipelines.
    Question. What is the Army spending in research and development to 
identify new equipment and gear for women on the battlefield?
    Answer. The Army is continuously spending research and development 
dollars to identify new equipment and gear based on changes to Army 
Mission Scenarios and Operational Concepts. Major research efforts 
focus on changes to equipment based on changes in operational 
environmental and emerging threats. We maintain a series of smaller, 
more rapid research efforts which focus on unique areas such as 
Military Occupation Specialty-specific equipment (e.g., Aviators, 
Snipers, Fuel Handlers) and in the past this research area has improved 
Body Armor fit for female Soldiers. Science and Technology will 
continue to work with U.S. Army Training and Doctrine Command to 
understand the unique needs of the female population entering these 
occupational specialties, and adjust our investments if necessary.
    Question. What shortfalls is the Army seeing in equipment for women 
on the battlefield?
    Answer. The Army has not identified any shortfalls related to 
equipment for women on the battlefield.
    Additional sizes of uniforms and equipment have been established 
for women. Women deployed since 2013 have been issued properly sized 
gear.
    The Army will continue to improve functionality, fit, and comfort 
for all Soldiers and has undertaken many initiatives to address the 
issue of providing properly fitting uniforms and Organizational 
Clothing and Individual Equipment and Personal Protective Equipment to 
female Soldiers.
    The Army Combat Uniform--Female (ACU-F) has been in stock and 
available for order at all Army Military Clothing Sales Stores since 
2013. In the same year, the Army also began issuing the ACU-F to newly 
recruited Soldiers. Flame Resistant Army Combat Uniforms with ACU-F 
sizing will be available in the Operational Camouflage Pattern via the 
Rapid Fielding Initiative in late fiscal year 2016.
    The female size Generation III Improved Outer Tactical Vest (F-
IOTV) continues to provide the same unsurpassed ballistic protection of 
existing Army body armor, while providing eight additional sizes and 
with other modifications to provide a better fit.
    The new Soldier Protection System Torso Extremity Protection (TEP) 
subsystem is the newest IOTV configuration and will be sized for a wide 
population including small statured Soldiers, male and female. The TEP 
ballistic combat shirt will include female specific sizing and will 
mitigate compatibility issues with hair buns in comparison to the 
legacy yoke and collar.
                            pacific pathways
    Question. The Army is requesting $45 million dollars for its new 
Pacific Pathways initiative. What steps has the Army taken to ensure it 
is not infringing on the missions of the Marine Corps and Navy?
    Answer. Based on the requests of the Commander, U.S. Pacific 
Command (PACOM), we believe Army mission meet valid requirements and do 
not conflict with or infringe upon Marine Corps and Navy missions.
    Question. How does China putting Surface to Air Missiles in the 
Parcel Island chain, and the creation of man-made islands in the South 
China Sea, impact the three planned pacific pathways the Army has this 
year?
    Answer. This does not impact to the Army's three planned Pathways 
rotations this year.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                           tobacco use policy
    Question. Reducing tobacco use in the Army would seem to be a win-
win . . . Not only would it save lives, but it would also improve 
short-term readiness and save Army significant amounts in tobacco-
related healthcare costs. Isn't it time to revisit the Army's tobacco 
policy at Advanced Individual Training?
    Answer. The Army wholeheartedly supports reduction or cessation of 
tobacco use for all the reasons you cite, including the readiness of 
our force, which is our number one priority. As our end strength draws 
down, it is imperative that every Soldier be as physically fit and as 
healthy as possible to meet the challenges ahead to preserve the 
freedoms as citizens we enjoy.
    The Army's policy regarding the use of tobacco by Soldiers in 
Initial Entry Training (IET) has always been a balance between total 
control over the Soldier during the various phases of training and 
restoration of earned privileges as Soldiers successfully progress 
through training. In the end, the intent is to treat new Soldiers like 
adults, especially as they move to Advanced Individual Training (AIT), 
as we arm them with training, instruction, and education designed to 
support mature decisionmaking regarding their health and physical 
fitness. Currently, the U.S. Army Training and Doctrine Command 
(TRADOC) prohibits the use of tobacco products by IET Soldiers in the 
first three phases of IET, which includes all 10 weeks of Basic Combat 
Training or the first 9 weeks of One Station Unit Training. 
Importantly, during these phases, all cadre and supporting Soldiers are 
also prohibited from using tobacco products in areas where IET Soldiers 
are likely to observe the use.
    Depending on the military occupational specialty, AIT ranges in 
time from 4 weeks to over 20 weeks with AIT Soldiers. During AIT the 
total prohibition on tobacco use is lifted, but restrictions on 
locations and times for use are imposed. Instruction on the adverse 
impact tobacco use has on health and readiness is presented to both IET 
Soldiers during early phases of training and then again in AIT as part 
of focused fitness and substance abuse training. Similar to TRADOC, 
Army Medical Command (MEDCOM) reduces the risk of tobacco related 
illnesses by limiting primary, secondary and tertiary tobacco exposure 
by making its medical campus boundaries tobacco-free areas. In 
addition, MEDCOM restricts the use of tobacco products by all MEDCOM 
AIT Soldiers during the duty day.
    The Army and TRADOC will continue to strive to strike the right 
balance of zero tolerance for those things that are illegal and 
providing training and instruction on those things that are legal, but 
harmful if used, even in moderation.
                                  ampv
    Question. The Congressional Research Service has a report dated 
October 15, 2015, that highlights a recent $2.6 billion cost growth to 
the ``AMP-Vee'' program. This is the largest weapons development 
program in the Army today, which is building a new armored vehicle. CRS 
also says that the Army has not explained this increase. What was the 
cause of this $2.6 billion cost growth in the AMPV program? What does 
this say about the Army's management of large acquisition programs? 
(SMS)
    Answer. The Army did not have a $2.6 billion cost growth as 
identified in the Congressional Research Service Report, dated October 
15, 2015. The CRS misidentification of a $2.6 billion cost growth 
discrepancy is primarily the result of using figures from both an early 
program estimate (pre-Program of Record), as well as the Program of 
Record Independent Cost Estimate for the calculation. In addition to 
using both non-Program of Record and Program of Record estimates, the 
discrepancy is exacerbated because the early program estimate figures 
used in the report were not adjusted for inflation over 26 year program 
life giving the impression of a significant program cost growth. The 
AMPV program is fully funded to the Independent Cost Estimate, and the 
Army continues to manage large acquisition programs closely to ensure 
that there is no impact to budget that could deter the development of 
the Army's largest weapons development program.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                   major range and test facility base
    Question. I understand the services use different resourcing models 
for? their Major Range and Test Facility Bases (MRTFB) and 
capabilities. In your opinion, and the opinion of White Sands Missile 
Range, is the current resourcing model sustainable and will the Army 
commit to a study regarding which model would be best to sustain White 
Sands Missile Range's capabilities in the future?
    Answer. The model the Army uses to resource Army Major Range and 
Test Facility Base (MRTFB) capabilities is sustainable. This model is 
based on past historical work performed and a projection of future work 
to be performed based on Army RDA funding. The accuracy of the workload 
projection model has been validated by the Army Cost and Economic 
Analysis Center (CEAC) and provides out-year projections at the 
command-level within plus or minus 10 percent of actual workload. While 
I believe this model provides a reasonable resource requirement for the 
Army MRTFB test centers, I am willing to commit to a study to improve 
upon this method.
                high energy laser systems test facility
    Question. At White Sands Missile Range the Army's High Energy Laser 
Systems Test Facility (HELSTF) remains underfunded and lacks the 
necessary personnel to conduct its mission. An April 2009 report to 
Congress from the Test Resource Management Center and the High Energy 
Laser Joint Technology Office recommended funding for HELSTF at $6.4 
million, but it has been reported current funding for HELSTF sits at 
$2.8 million. With DOD's own Third Offset Strategy promising 
significant investments in high-energy lasers, where does HELSTF fit 
into this strategy and does its fiscal year 2017 funding properly 
reflect this role?
    Answer. In 2011, as a response to the Test Resource Management 
Center and the High Energy Laser Joint Technology Office Study, the 
Army transferred the HELSTF from the Army Space and Missile Defense 
Command/Armed Forces Strategic Command to the Army Test and Evaluation 
Command to gain efficiencies and allowed divestiture of capabilities no 
longer needed. This transfer enabled the Army to maximize the use of 
the facility by reducing duplication of effort, instrumentation, and 
facilities while providing high quality support/products for our 
customers. The 2009 study did recommend $6.4 million as the annual 
required funding versus the $2.8 million that the Army has funded since 
2010. However, the efficiencies gained by the command realignment 
described above as well as additional funding from the DOD Central Test 
and Evaluation Investment Program (CTEIP) and Science & Technology 
(S&T) of approximately $12 million over the last 10 years have 
continued to keep the instrumentation level appropriate. HELSTF remains 
the DOD designated site for High Energy Laser. As new requirements 
arise, they are addressed by both Army and DOD CTEIP resourcing 
solutions.
                    the armed reconnaissance mission
    Question. The Commandant of the Marines, in a recent Military Times 
article he was quoted advocating for the use of commercially available 
quadcopters with cameras to support recon for every rifle squad. I see 
the Marine's looking towards future technology and the Army commission 
recommending a new armed aerial scout . . . which was a failed program 
in the past. With that in mind, does the Army have a sufficient 
strategy to fulfill the armed reconnaissance mission using the Apache 
and UAS? Do modernization and procurement budget reductions affect this 
mission, and what can the Army do to pursue more successful programs 
like the PD-150 miniature unmanned aerial vehicle to fulfil this 
capability?
    Answer. As part of a layered reconnaissance strategy, the Army has 
adopted the solution of AH-64s teamed with UAS to meet the armed aerial 
scout requirement. This is commonly referred to as Manned/Unmanned-
Teaming (MUM-T). Two comprehensive studies determined that a mix of 
manned and unmanned aircraft, in the same formation, increase 
operational effectiveness over purely manned or purely unmanned 
formations. Pairing the long endurance, covert presence and higher 
viewing angle of the RQ-7 Shadow UAS with the Apache increases Army 
Aviation's lethality while improving aircrew survivability. This 
strategy was validated daily in both Iraq and Afghanistan.
    The Army will continue to utilize the AH-64 teamed with UAS until 
development of a future Armed Reconnaissance platform. Budget 
reductions will effect the speed for the Army's development of these 
programs. Buyout of the Apache and Blackhawk fleets provides the 
funding required for Future Vertical Lift. Increases to the number of 
Apaches that the Army must purchase or delays to Blackhawk 
modernization exacerbate this challenge.
    Specific to the Commandant of the Marine Corps comments, the Army 
agrees that services must leverage small UAS (<20lbs aircraft) 
capabilities. In 2013, the Army converted the existing RQ-11B Raven UAS 
Program of Record into a Family of Systems. The Family of Systems uses 
three sizes of aircraft tailored to the user's mission. Of the three, 
two were existing Army aircraft: the 4 lbs. RQ-11 Raven and the 13 lbs. 
RQ-20 Puma. The third system, the Short Range Micro is envisioned to be 
a smaller UAS (1-5 lbs.), and the intent is to compete that system in 
the next fiscal year. This strategy provides greater flexibility of 
employment of our small UAS, while still taking advantage of the more 
than 7,000 Raven and Puma aircraft already in use. Although Short Range 
Micro will enhance the reconnaissance capacity in our smaller 
formations, its size, endurance, range, and survivability will preclude 
it from becoming a partial solution to the Army's armed aerial scout 
requirement.
    The Army continues to encourage innovation and drive our 
reconnaissance capabilities to the smallest maneuver formations. While 
the aforementioned UAS Family of Systems support platoon and larger 
units, the Army has identified a capability gap at the squad level. The 
solution being evaluated is a small, short range Soldier Borne Sensor. 
This device is not considered a traditional UAS that transmits its data 
to a wide group of consumers but would instead be linked directly to 
individual soldiers and used for missions in buildings, over walls and 
around corners. Systems like the 65 gram PD-150 Black Hornet ($54,000) 
are being used in research and development to inform the process as the 
Army works to codify requirements.
                white sands missile range infrastructure
    Question. Is the Army looking to utilize the vacant 2nd Engineer 
Battalion buildings on WSMR? How can we work with the Army to bring a 
new mission for what is arguably one of the most unique Army facilities 
in the world?
    Answer. The facilities for the 2nd Engineer Battalion are a good 
example of underutilization, resulting from our reduced end-strength. 
The Army recognizes that White Sands Missile Range (WSMR) is home to 
some of the Department's premier test range facilities, providing 
tremendous capabilities to the Army and entire Department of Defense. 
The Army will fully consider the opportunities that WSMR offers to test 
systems, train Soldiers and contribute to the defense of the Nation. 
Across all Army installations, we estimate approximately 21 percent 
excess capacity at a Total Army end-strength of 980,000.
                         energy diversification
    Question. How does this budget support energy diversification at 
our bases and how can the Congress further support efforts to ensure 
our bases have reliable and secure sources of energy and can operate in 
the event of a failure or cyber-attack on the electrical grid?
    Answer. Army energy diversification investments are focused on 
enhancing mission effectiveness, building resiliency of our energy 
infrastructure, and containing or reducing costs. The fiscal year 2017 
budget has limited funding directed toward energy diversification. We 
are using authorities from Congress that allow for private sector 
investment instead of appropriated funds.
    Army renewable energy projects are designed to provide power to the 
grids on our installations, now or after a future upgrade, at prices 
that are equal to or below projected conventional utility rates. In 
total, the Army anticipates savings of over $250 million in avoided 
utility costs over the life of the projects.
    When market and regulatory conditions allow, more advanced energy 
security features are incorporated into these projects. For example, 
Fort Drum, NY has demonstrated the ability to operate independently 
from the grid, relying completely on power generated by an on-site 
biomass power plant. In Hawaii, the Army is working with Hawaiian 
Electric on a multi-fuel power plant using fuel oil, natural gas, and 
biofuel. The project will provide complete energy security for 
Schofield Barracks, Wheeler Army Airfield, and Field Station Kunia. 
This plant will also improve the reliability of the local grid, and 
provide the island with its first baseload power-generating asset above 
the tsunami strike zone.
    In May 2015, the Army published its new ``Energy Security and 
Sustainability Strategy,'' with resiliency as the integrating theme for 
both operation and installation energy efforts. Key components of 
energy resiliency on our installations include broader diversification 
of power generation assets. This includes renewable energy and the 
deployment of cyber-secure micro-grids to manage power on the base, 
should the surrounding electrical grid fail. The Army currently has 159 
mega-watts (MW) of renewable energy generation capacity installed on 
our installations, with 40.5 MW of this amount installed in the past 
twelve months. Taken together, these projects produce power equivalent 
to 12 percent of the Army's total consumption. The Army is developing a 
further 400 MW of projects, representing over $800 million in private 
sector investment.
    Continued predictable and accurate funding for the Army's 
operations and renewable energy initiatives will allow the Army to 
continue developing a robust and resilient energy infrastructure.
                            cultural experts
    Question. One of the most noted failures of the Iraq occupation was 
the lack of subject matter and cultural experts. While I hope that 
there is no need for them in any future war, in your opinion does the 
Army have a strong pipeline of these type of foreign area experts that 
could be utilized in a contingency, and if not, what does the Army need 
to strengthen this pipeline?
    Answer. In my opinion, the Army Foreign Area Officer (FAO) program 
continues to be the Department of Defense (DOD) ``gold-standard'' for 
the development and permanent utilization of officers who provide 
cultural, regional, and language expertise. Since 2003, the Army has 
deliberately increased training (language-academic) and added manpower 
(1206 total officers for a 20 percent increase) with a forward presence 
in 139 countries and within all DOD functional and geographic Combatant 
Commands. To sustain our investment, we have funded programs to enhance 
FAO skills and realign officers to meet contingencies. Finally, our FAO 
proponent continuously reviews policy and utilization to ensure the 
Army can support current and emerging national security requirements.
    The Army has identified cultural and joint, interagency, 
intergovernmental, and multinational competence as one of its 21st 
Century Soldier Competencies. While specialists such as FAOs have 
extensive formal programs for regional expertise, much of the force 
develops this competency through pre-deployment training. Once aligned 
to a certain area of operations, units can leverage a number of tools 
and resources to build regional expertise. These include the U.S. Army 
Training and Doctrine Command Culture Center, the Naval Postgraduate 
School Leader Development and Education for Sustained Peace program, 
the Army's Combat Training Centers, various online and virtual 
training, as well as prior unit and Solider experience.
    The Army includes CREL-related education and training and all 
levels, beginning with pre-commissioning. Opportunities expose U.S. 
Army Cadets, through U.S. Army Cadet Command's Cultural Understanding 
and Language Proficiency program, to everyday life in different 
cultures and intensify their language study, which helps produce 
commissioned officers who possess the right blend of language and 
cultural skills required to support the Army's operations. The United 
States Military Academy's Center for Languages, Cultures, and Regional 
Studies provides similar training and opportunities for West Point 
cadets. Army ROTC cadets also participate in the Project Global Officer 
(GO) program. In 2015, 286 (54 percent) of the 530 Project GO 
participants were Army ROTC students. Cultural awareness training 
continues throughout the career development model and is included in 
Basic Officer Leader Courses (BOLC), Captains Career Courses, Command 
and General Staff Officers Course (CGSOC), and at the U.S. Army War 
College (USAWC). The USAWC addresses culture as an integral part of its 
core curriculum through its Regional Studies Program and Regional 
Issues and Interests for its resident and distance education programs 
respectively. This career-long institutional training model for leaders 
and commanders complements the collective, leader, and individual 
training conducted by units preparing to deploy. The Army's recently 
published handbook for Regionally Aligned Forces identifies use of 
interpreters and conduct of negotiations as critical tasks for leader 
and commander training prior to deployment.
                           personal dosimeter
    Question. It remains a critical capability that members of the 
Armed Services have situational awareness of potential exposure to 
radiation. For over 30 years, the Army has used dosimeters on Soldiers 
and other platforms to detect radiological threats.
    Given that many of the personal dosimeters and readers are over 30 
years old, it is concerning that many contain outdated technology, are 
not interoperable with more modern systems, and do not measure and 
record the range of dose presented by radiological threats on today's 
battlefields.
    What is the Army's plan to accelerate the fielding of modern 
dosimeter systems which will both accurately sense the radiological 
threats faced by our soldiers on today's battlefields and maintain a 
critical industrial capacity? Does the acquisition and fielding plan 
include the Army National Guard who is charged with confronting 
potential radiological threats on America's homeland?
    Answer. There are no plans to accelerate the fielding of modern 
dosimeter systems. The Army currently has sufficient stocks of legacy 
AN/PDR-75 and AN/PDR-75A systems to provide tactical radiological 
dosimeter capability to the Active, Guard and Reserve components.
    The Army, working jointly with the other Services, selected the 
Joint Personnel Dosimeter--Individual (JPD-I) as its future personal 
dosimeter. The JPD-I will have enhanced capabilities over legacy 
dosimetry systems and accurately sense all radiological threats faced 
by our Soldiers on the modern battlefield. These include a real-time 
display of dosage, interoperability with Nett Warrior to periodically 
transmit the Soldiers' exposure data up the operational chain of 
command, ability to electronically transmit post exposure data to the 
Army's Dosimetry Center, and interoperability with the Department of 
the Navy.
    Multiple vendors submitted proposals, indicating adequate 
industrial capacity for the development of dosimeters for not only the 
U.S. Government but the civilian market as well.
    The acquisition and fielding plan includes the Regular Army, 
National Guard, and Reserve. The Army will begin fielding the JPD-I in 
fiscal year 2020.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
                         combat training center
    Question. I recognize the Army is fully committed to regenerating 
readiness in the near term. The 19 Combat Training Center (CTC) 
rotations that you have budgeted for in fiscal year 2017 puts us on a 
path to get there. I understand that our throughput for training units 
at the CTCs is at capacity. However, is there anything more we could be 
doing to support home station training so that units get more out of 
the CTC rotations once they are there?
    Answer. Our throughput capacity at our CONUS CTC is 20 rotations, 
each with fourteen training days (10 at JRTC and 10 at NTC), with a 
surge capacity of 22 (11 rotations at each center respectively) 
rotations if required to meet operational demands. We are executing and 
programming 19 rotations based on demand.
    Increasing training readiness levels at Home Station before 
deploying to the CTC, allows units to get more out of their CTC 
rotation. At home station, units begin with individual/small team 
training and progressively build readiness through brigade-level 
training events. Currently, the Army is not able to support the full 
training progression at home station by all units before their CTC 
rotation. To get the most out of CTC rotations, the Army would need to 
be able to fully fund the training progression at home station by 
participating units.
                           milcon sustainment
    Question. General Milley, I recognize that in this fiscal 
environment, the Army has had to make hard choices, including putting 
money in the short term toward efforts to rebuild readiness while 
assuming risks in MILCON and facilities sustainment.
    I worry, though, that the longer we take risks in MILCON and 
facilities sustainment--deferring repair work in company operations 
facilities and forgoing modernizations at our CTCs that build our 
soldiers' readiness--we undermine our long-term readiness.
    What concerns do you have about Army readiness as we continue to 
take risks over the long term in MILCON and facilities sustainment?
    While I recognize a higher topline could mitigate those long-term 
risks, what other steps can we take to help address those concerns?
    Answer. My concern is excess facility infrastructure that is a 
burden on our limited sustainment and base operations accounts. We are 
meeting today's missions at our installations but this is not 
sustainable. Insufficient investments and deferred maintenance over the 
long term degrade our facilities and will reduce the Army's capability 
to prepare and train full spectrum forces.
    Congress can help by authorizing a new Base Realignment and Closure 
round. It will allow us to close lower military value installations and 
realign enduring missions into the excess capacity of our higher 
military value installations. The resultant cost savings allows the 
Army to afford more readiness and modernization within the existing 
top-line, and permanently reduces its MILCON, base operations support, 
and facility sustainment requirements.
                       army brigade combat teams
    Question. The Army has taken steps to preserve important combat 
capabilities by forming multicomponent units that draw on the strengths 
of the National Guard and Army Reserve. However, more can be done to 
unify the Army's components by integrating the Reserve Component into 
Army Brigade Combat Teams.
    How, if at all, is Army leadership considering forming 
multicomponent units in its Brigade Combat Teams?
    How would forming multicomponent units in Army Brigade Combat Teams 
(BCT) affect training and readiness and the cost of a BCT compared to 
the current full-time Active Duty BCT?
    What would be the level of overall combat effectiveness for a 
multicomponent BCT compared to that of an active duty BCT?
    Answer. The Army plans to expand the concept of multicomponent 
units to BCTs beginning in fiscal year 2017. Planning for the ``Total 
Force Unit'' pilot program began in 2015 before the release of the 
National Commission's recommendations. The Army will associate active 
component (AC) and reserve component (RC) units together in cohesive 
formations. For example, a RC infantry battalion would serve as the 
third maneuver battalion for an AC infantry brigade.
    Select RC units will have more training days than the traditional 
39 per year. RC brigade combat teams in the pilot program will also 
execute combat training center (CTC) rotations more frequently by going 
once every 2 or 3 years, depending on rotational capacity of CTC. Costs 
for the AC units stay generally the same. There may be increased costs 
for RC units. Ongoing planning for the pilot program will determine 
this.
    All BCTs are held to the same readiness standards. This pilot 
program will help determine achievable readiness for the Total Force 
Unit BCTs.
                                 energy
    Question. The Army has been an important leader when it comes to 
energy. The Net Zero Energy initiative has reduced installation energy 
demand and helped the Army secure power to support critical missions.
    At the same time, the Army is pioneering advanced soldier battery 
technology that can help cut down on the number of heavy batteries that 
soldiers have to carry with them on deployments. These are important 
research and development efforts.
    How is the Army's investments in energy improving its warfighting 
capabilities and reducing the risks our soldiers face?
    Answer. Energy is critical to the Army's ability to conduct and 
support operations. The Army's Operational Energy program improves 
combat capability and reduces tactical and operational risks by 
extending range, endurance, flexibility, and resilience to improve 
freedom of action. Most importantly, we are focused on giving every 
Soldier and leader the information they need to use energy for the 
greatest operational good.
    Working with the U.S. Marine Corps (USMC), we have reduced the 
battery weight carried by infantry squads by 23 percent, and deployed 
these solutions in combat with 13 Army Brigade Combat Teams. The Army 
and USMC are working to reduce Soldier load with the Joint Infantry 
Company Prototype (JIC-P) effort. JIC-P limits the number/type/weight 
of batteries carried by dismounted troops, minimizes resupply 
requirements, and extends operational reach.
    Similarly, the modernization programs for our combat vehicles 
improve the power generation and distribution within the vehicles, 
enabling the installation of 21st century mission command and 
protection capabilities. The improvements in contingency base 
capabilities reduce the logistical footprint required to support 
Soldiers in austere conditions, at the end of often contested supply 
lines. These capabilities also improve the quality of life of our 
Soldiers, and free them from maintenance activities to concentrate on 
their primary mission.
                          integration of women
    Question. As I understand it, the Army has submitted its 
implementation plan for opening infantry, artillery, and special 
operations occupational specialties to women for DOD approval.
    Per Secretary Carter's direction, the services are required to be 
ready to execute their implementation plans by April 1, 2016.
    How does this budget request reflect the funding requirements 
necessary to continue executing the Army's implementation plan for 
fiscal year 2017?
    Answer. The Secretary of Defense's implementation decision was made 
after the DOD had built its fiscal year 2017 budget request. As a 
result, the fiscal year 2017 request does not specifically address 
requirements to integrate women in to the recently opened career 
fields. Army senior leaders are committed to ensuring a successful 
integration of women into all positions. To date, the Army has 
identified barracks modifications required to integrate women into 
combat arms career fields and estimates a one-time incremental cost of 
about $7 million for training barracks modifications in the Army 
training base. This estimate is preliminary and excludes mother's room 
costs of about $3.5 million across DOD. Three Training and Doctrine 
Command schools require modification: the Infantry School and the Armor 
School at the Maneuver Center of Excellence, Fort Benning, GA and 
Ranger Training Brigade facilities. The Army will work these 
modifications into our facility renovation plans to support the 
integration plan. There are no additional known budget impacts in 
fiscal year 2016 or the fiscal year 2017 budget for integrating women 
into all occupational fields.
                                pacific
    Question. Given the current fiscal restraints and the global threat 
environment, there are many variables to be considered when making 
force structure decisions. However, the Army has demonstrated an 
investment in the Pacific with initiatives such as Pacific Pathways and 
stationing a third of the Army's deployable force within the region.
    Can the Army commit to maintaining the status quo in force 
structure within the Pacific?
    Answer. The Army remains committed to the Asia-Pacific Region, 
which is consistent with the National Strategy and the Rebalance to 
Asia and the Pacific. Under fiscal constraints, however, the Army must 
remain flexible. Since we cannot forecast precisely when and where the 
next contingency will arise, the Army will need to be dynamic and fluid 
to meet emerging threats. The Army is committed to using the best 
available resources to support U.S. Pacific Command requirements, and 
will balance enduring commitments with contingency requirements.

                          SUBCOMMITTEE RECESS

    Senator Cochran. The committee will reconvene on Wednesday, 
March 2, at 10:30 a.m. to receive testimony from the Department 
of the Navy. Until then, this subcommittee stands in recess.
    [Whereupon, at 12:07 p.m., Wednesday, February 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
